                              United States Department of State
                              and the Broadcasting Board of Governors

                              Office of Inspector General
Office of Inspector General

                              Semiannual Report to the Congress

                              October 1, 2005 to March 31, 2006
                           Summary of OIG Accomplishments


Financial Results:
Questioned costs
      Issued during the reporting period                                $   471,000
      Management decision during the reporting period                   $ 3,611,000

Recommendations for funds to be put to better use
      Issued during the reporting period                                $ 7,716,000
      Management decision during the reporting period                   $   253,000

Investigative recoveries                                                $ 3,888,413

Investigative Results:
Cases opened                                21
Cases closed                                29
Judicial actions                            26
Administrative actions                      16
Hotline and complaint activity              196


Reports Issued:                             55



                   Picture on the front cover: Embassy Kabul, Afganistan
                 Picture provided by Office of Overseas Buildings Operations

                               Requests for additional copies of this
                               publication should be addressed to:

                                      Office of Inspector General
                                       U.S. Department of State
                                         OIG/ADM, Room 810
                                       1700 North Moore Street
                                          Arlington, VA 22209



                              Department of State Publication 11193
                                   Office of Inspector General
                      TABLE OF CONTENTS




EXECUTIVE SUMMARY ........................................................................................ 1

          DEPARTMENT OF STATE

AUDITS ............................................................................................................... 13
INSPECTIONS .................................................................................................... 29
INFORMATION TECHNOLOGY ......................................................................... 45
INVESTIGATIONS ............................................................................................... 47
APPENDIX 1: DEPARTMENT OF STATE INVESTIGATIVE ACTIVITIES ........... 53
APPENDIX 2: REPORTS ISSUED .................................................................... 55
APPENDIX 3: SAVINGS AND MORE EFFECTIVE USE OF RESOURCES ...... 59
    Table 1: Questioned Costs
   Table 2: Funds To Be Put To Better Use
APPENDIX 4: RESOLUTION OF REPORTS AND RECOMMENDATIONS ....... 61



          BROADCASTING BOARD OF GOVERNORS


AUDITS .............................................................................................................. .67
INSPECTIONS .................................................................................................... 69
INVESTIGATIONS ............................................................................................... 71
APPENDIX 1: BROADCASTING BOARD OF GOVERNORS INVESTIGATIVE
   ACTIVITES ................................................................................................... .73
APPENDIX 2: REPORT ISSUED ........................................................................ 75
APPENDIX 3: SAVINGS AND MORE EFFECTIVE USE OF RESOURCES ....... 77
    Table 1: Questioned Costs
   Table 2: Funds To Be Put To Better Use

CONGRESSIONAL ACTIVITIES AND OUTREACH............................................ 79

LIST OF ABBREVIATIONS .................................................................................. 83
                    EXECUTIVE SUMMARY

                                     Executive Summary

The auditors, inspectors, investigators, and other professionals in the Office of
Inspector General (OIG) promote effective management, accountability, and
positive change in the Department of State (Department), the Broadcasting Board
of Governors (BBG), and the foreign affairs community. They provide leadership
to:
•       promote integrity, efficiency, effectiveness, and economy;
•       prevent and detect waste, fraud, abuse, and mismanagement;
•       identify vulnerabilities and recommend constructive solutions;
•       offer expert assistance to improve Department and BBG operations;
•       communicate timely, useful information that facilitates decision-
        making and achieves measurable gains; and
•       keep the Department, BBG, and the Congress fully and currently
        informed.
During this semiannual period, OIG focused on key areas, including programs and
operations in Iraq and Afghanistan, the Middle East, the Western Hemisphere,
Security, Intelligence, Counterterrorism, and Financial Management to name just a
few. Supplemental funding of $1.7million enabled OIG to provide oversight in Iraq
and Afghanistan. On the other hand, budget constraints restricted inspections of
foreign posts to nine as compared to 20 foreign posts in the previous semiannual
period. In lieu of the overseas inspections, OIG conducted inspections of six
domestic bureaus and offices. Highlights of OIG’s accomplishments during this
semiannual period include the following.




Iraq Afghanistan Oversight

OIG conducted an inspection of the numerous rule-of-law programs in Iraq,
excluding the Iraq Police Training Program which was assessed last reporting
period, and as to which the Inspector General followed up in his visits during this
reporting period to the Jordan International Police Training Center and to Baghdad
Police College. The estimated $400 million invested at the time of our inspection
in rule-of-law activities under the Ambassador’s authority involved the
Departments of State, Justice, and Defense as well as several contractors and




Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006   1
     nongovernmental grantee organizations. OIG found most of that money appeared
     to have been well spent. However, OIG stressed the need for a fully integrated
     approach to justice-sector reform in Iraq and recommended that Embassy Baghdad
     design and implement a strategic plan that includes outcomes, benchmarks, and
     measures that would serve as the basis for the rule-of-law section in the Mission
     Performance Plan. In addition, interagency coordination presented a major
     challenge, and OIG recommended the embassy designate a full-time, senior rule-of-
     law coordinator. OIG noted that basic to the success of all hopes for democracy
     and good governance in Iraq is an effective anticorruption regime, and OIG urged
     support for Iraqi efforts to design a regime, including a training facility for
     anticorruption personnel from, and with the support of, Iraq’s Commission on
     Public Integrity, Board of Supreme Audit, and corps of Inspectors General.

     In October 2005, the House Committee on Government Reform’s Subcommittee
     on National Security, Emerging Threats, and International Relations held a hearing
     on Iraq reconstruction, governance, and security. The Inspector General’s
     testimony provided an overview of several OIG Iraq-related projects, including
     OIG audits and inspections as well as OIG’s approach to oversight in Iraq. The
     majority of his testimony focused on OIG’s review of Iraqi rule-of-law programs
     and the interagency assessment of Iraqi police training done during the last
     semiannual period with the Department of Defense OIG.

     At Embassy Kabul, Afghanistan, in a dangerous and stressful operating
     environment, OIG found an energetic staff engaged in counterterrorism,
     counternarcotics, and counterinsurgency, as well as the broad task of nation-
     building in a post-conflict environment. OIG commended the Embassy for its
     steps to wean the Afghan Government from over-dependence on the U.S.
     Government for policy guidance and decisions. However, OIG also found a lack
     of institutional memory to be an impediment to good executive direction and
     challenges in attracting and maintaining qualified staff to the post. OIG also
     commented on Provincial Reconstruction Teams and the Afghanistan
     Reconstruction Group.




2   Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006
The Middle East

OIG conducted a number of overseas inspections falling within the regional
Bureau of Near Eastern Affairs (NEA). At Embassy Riyadh, Saudi Arabia, and its
constituent posts, OIG determined that the bilateral foreign policy issues were well
managed. However, adequate staffing within the mission was difficult because of
the recently implemented one-year, unaccompanied tours. OIG recommended the
assignment of a full-time regional security officer (RSO) to Consulate General
Jeddah as temporary, short-term staffing did not provide sufficient continuity or
productive liaison with the host country agencies. The Department readily
responded by filling the position.

At Embassy Sanaa, Yemen, OIG found all embassy sections, including the U.S.
Agency for International Development (USAID), the Middle East Partnership
Initiative (MEPI), the legal attaché, and the military detachments, were fully
involved in achieving the embassy’s counterterrorism goal. However, the embassy
needed an additional American position to manage its more than 500 locally
employed staff, including 277 guards. OIG found that Embassy Sanaa had an
excellent fraud prevention operation that could serve as a model at consular posts
worldwide.

OIG examined the coordination and implementation of MEPI and identified
persistent communications problems between the Office of Middle East
Partnership Initiative within NEA and embassies having MEPI programs. OIG
agreed that MEPI is an example of transformational diplomacy at work and overall
it is a useful diplomatic tool.




Security, Intelligence, and Counterterrorism

OIG reviewed the Anti-Terrorism Assistance Program within the Bureau of
Diplomatic Security (DS/ATA). During this reporting period, OIG conducted the
latter phase of a two-part review and determined that the ATA Program has been
successful in meeting the substantial needs for anti-terrorism training since
September 11, 2001, but that improvements should be made to ensure that
program objectives continue to be achieved. OIG recommended a more suitable
mechanism for obtaining training services and several improvements to the course
curriculum process.


Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006   3
     With a budget of $950 million, DS’s Directorate for International Programs
     (DS/IP) ensures the security of U.S. overseas personnel and facilities. OIG found
     that DS/IP remained effective and maintained the performance of its highest
     priority programs, in spite of transitioning to new leadership, vacancies in key
     positions, budget uncertainties, and increasing security threats. A key area for
     improvement highlighted by OIG was the financial management of the bureau’s
     budget to better align it to program costs. OIG also recommended that DS clarify
     its relationship with the Force Protection Detachment personnel assigned to
     embassies.

     OIG inspected the Bureau of Intelligence and Research (INR) and determined that
     as the intelligence community continues to transform, INR will need to reevaluate
     how it will support its intelligence clients. INR is distinguished especially for its
     ability to produce high-quality intelligence assessments using relatively modest
     resources.

     OIG’s review of the Office of the Coordinator for Counterterrorism (S/CT) found
     that S/CT had too often been viewed as marginal to the global war on terror
     because of a lack of leadership, insufficient resources, and the difficulty of helping
     to coordinate the wide scope of counternarcotics efforts. This had eclipsed the
     hard work of dedicated employees and caused low morale and difficulty in
     recruiting and retaining employees. The new coordinator has recruited an
     experienced management team that has begun to reinvigorate S/CT and raise
     morale.




     Financial Management

     As mandated by the Chief Financial Officers (CFO) Act, as amended, OIG’s
     external auditor, Leonard G. Birnbaum and Company, LLP (LGB) audited the
     Department’s principal financial statements to determine whether they were
     presented fairly, in all material respects, in conformity with accounting principles
     generally accepted in the United States. LGB found two material weaknesses in the
     Department’s internal controls related to personal property and the information
     system network; three reportable conditions related to internal controls over the
     financial and accounting system, management of undelivered orders, and
     managerial cost accounting; instances of noncompliance with provisions of




4   Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006
applicable laws and regulations involving the financial management system; and
that the Department was not in substantial compliance with the Federal Financial
Management Improvement Act (FFMIA) of 1996.

LGB issued an unqualified opinion on BBG’s principal financial statements;
however, LGB identified some inadequacies in BBG’s financial and accounting
system. LGB also issued an unqualified opinion on the International Cooperative
Administrative Support Services’ (ICASS) 2004 and 2003 financial statements.
LGB identified internal control weaknesses related to information systems security
and the financial and accounting system as well as instances of noncompliance
with applicable laws and regulations relating to the Department’s financial
management systems.

OIG conducted a series of agreed-upon procedure engagements relating to the
Department’s contracts, grants, and financial reporting requirements. These
engagements resulted in several recommendations to reimburse the Department,
strengthen procurement and grant administration, and improve internal controls
and reporting procedures.

OIG reviewed the internal control procedures used by the Office of Multi-Media
Services for government purchase cards, particularly for compact discs (CD). The
review identified over $100,000 in discrepancies, amounting to 54 percent of the
office’s total purchase for CDs, and recommended improvements, which the office
is implementing.

OIG audited the FY 2005 detailed annual accounting submission by the Bureau of
International Narcotics and Law Enforcement Affairs (INL) to the Director of
National Drug Control Policy (ONDCP). OIG found no matters of concern within
the scope of the review.




Western Hemisphere Affairs

    Inspection of Embassy Bogotá, Colombia
OIG conducted an inspection of Embassy Bogotá, Colombia, which is one of the
largest U.S. missions in the world. In its inspection of the mission, OIG found the
success of Embassy Bogotá and its multifaceted support to the government of
Colombia’s “Plan Colombia” can be attributed to highly effective interagency
cooperation. OIG noted, however, that security and administrative operations




Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006   5
     cannot support continued growth in staffing, which has doubled in ten years. OIG
     recommended that the mission conduct a top-to-bottom, interagency, rightsizing
     review as a first step in the process of reducing personnel, streamlining operations,
     and consolidating services. OIG identified as a best practice Embassy Bogotá’s
     highly efficient method for procuring fuel to support counternarcotics programs at a
     substantial cost-savings.
         Inspection of Embassy Lima, Peru
     Embassy Lima public affairs section plays a lead role in informing Peruvian publics
     of the impact of narcotrafficking on Peru’s civic and private institutions. The
     section is also conducting highly successful democracy-building mutual
     understanding programs. The narcotics affairs section is focused on ending Peru’s
     status as the second largest producer of cocaine in the world, but its effectiveness
     is constrained by the limitations of the Peruvian government and the lack of
     political support for aerial eradication of drug crops. The consular operation in
     Lima is efficient and well managed, but its poor physical layout limits its ability to
     address a growing immigrant visa workload and to prepare for a return to higher
     levels of nonimmigrant visa processing. The embassy needs to address
     shortcomings of the consular agency in Cusco and make its operations more
     professional.




      Law Enforcement

     OIG was involved in the investigation that led to the arrest of an individual in
     North Carolina who fraudulently obtained a U.S. passport. The joint investigation,
     conducted under the Passport Sentinel Initiative, was in conjunction with the
     Social Security Administration’s OIG and other law enforcement entities. The
     individual was ultimately sentenced to prison with fines.

     Another OIG joint investigation, involving the Department of Labor’s OIG, the
     Internal Revenue Service (IRS), Federal Bureau of Investigation (FBI), and
     Department of Homeland Security (DHS), led to the discovery of at least 1,400
     fraudulent visa applications. Seven individuals were indicted or agreed to plead
     guilty on charges of conspiracy to commit immigration fraud, conspiracy to
     encourage an alien to unlawfully enter the United States, money-laundering, and
     misprision of a felony. All seven individuals charged were sentenced to
     imprisonment or probation, with fines. The subjects also were required to forfeit
     over $3.2 million that was determined to be proceeds from the scheme.



6   Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006
Rightsizing

OIG reexamined the Department’s efforts toward rightsizing and issued a progress
report. Overall, the review determined that the Department was moving in a
positive direction and had prioritized its steps based on issues of importance to
Congress and the Administration. Several of the rightsizing initiatives were too
new to assess, but OIG made key observations pertaining to the 14-year
construction cycle for building new embassy compounds, the National Security
Decision Directive-38 (NSDD-38) mechanism for interagency staffing, and the
ICASS system.




Global Affairs

OIG conducted two reviews under the purview of the Under Secretary for
Democracy and Global Affairs (G): Office to Monitor and Combat Trafficking in
Persons (G/TIP) and Office of the Senior Coordinator for International Women’s
Issues (G/IWI). OIG found that G/TIP has successfully brought the issue of
trafficking to the forefront of foreign policy issues. Given the breadth of issues
involving child labor, bonded labor, and involuntary servitude, OIG recommended
that G/TIP prioritize its activities and strengthen its grants management process.

OIG’s review of G/IWI found it to be successful in promoting women’s rights and
issues as a U.S. foreign policy objective. OIG’s work should help G/IWI clarify its
mandate as well as reduce tensions and uncertainties within G/IWI.




Inspector General Activities and Outreach

Included in the Inspector General’s activities during this period were visits to
Afghanistan where he participated in the inspection of Embassy Kabul and
conducted a review of a major U.S. funded project; to Iraq where he participated in
various activities in Baghdad and Al-Hillah, visited the Baghdad Police College as




Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006   7
     a followup to previous OIG work, and met with the Inspector General of the Iraq
     Ministry of Foreign Affairs; to Pakistan where he met with the leaders of all U.S.
     agencies present; to Jordan where he was present during the Amman hotel
     bombings, visited the Jordan International Police Training Center as a followup to
     previous OIG work, and met with the Inspector General of Jordan’s Ministry of
     Foreign Affairs; to Colombia where he participated in the inspection of Embassy
     Bogotá and the audit work relating to inventory and parts maintained by the Air
     Wing; to Panama where he participated in the inspection of Embassy Panama and
     met with the Comptroller General of Panama; and to Charleston where he
     participated in the inspection of the Global Financial Service Center. In his role as
     Chairman of the Board of External Auditors of the Organization of American
     States, the IG conducted the Board’s review which led to the issuance of the OAS
     2005 audited financial statements and the Board’s report which he presented to the
     Secretary General.




8   Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006
DEPARTMENT OF STATE
                                       AUDITS




CONTRACTS AND GRANTS


Application of Agreed-Upon Procedures Relating
to DECO, Inc., Task Order No. SALMEC-04-F-0996
(AUD/IQO-06-17)

In response to a request from the Bureau of Administration, Office of Logistics
Management, Office of Acquisitions Management (A/LM/AQM), OIG performed
certain agreed-upon procedures to determine whether DECO’s loaded hourly rates
on task order no. SALMEC-04-F-0996 duplicated what OBO paid as direct travel
reimbursement for the period August 2, 2004, to May 31, 2005, and whether
DECO’s policies for including costs in the hourly rate complied with the Federal
Acquisitions Regulation (FAR), part 31. Total costs claimed under this task order
were $71,350. OIG found that DECO’s loaded hourly rates did not duplicate what
OBO paid as direct travel reimbursement. OIG found, however, that DECO’s
policies for including costs in the hourly rate did not always comply with FAR, part
31.

For example, the contractor billed the fully loaded rate for all hours worked on the
task order, even though the employee was paid a lower base hourly rate for time
spent in training or travel status. This was unallowable per FAR 31.201-2(a)(1). In
addition, DECO (1) based its general and administrative rate on the FY 2002 actual
rate rather than the rate for the most recently completed fiscal year, 2003; (2) could
not support the calculation of its material handling rate; and (3) billed costs for two
employees who did not work on this task order. As a result, OIG questioned costs
totaling $13,458. Of that amount, OIG classified $12,808 as unallowable and $650
as unsupported because of either inadequate or a lack of documentation. OIG
recommended that A/LM/AQM require DECO to reimburse the Department for
unallowable costs and provide additional documentation for the unsupported costs.



Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006   13
      Attestation Review of Annual Accounting of
      Drug Control Funds by the Department of State
      (AUD/CG-06-22)

      OIG reviewed INL’s FY 2005 detailed accounting submission to the ONDCP
      Director. INL’s Resource Management Office prepared the submission in
      compliance with the ONDCP circular, Annual Accounting of Drug Control Funds,
      dated April 18, 2003. OIG conducted its review in accordance with attestation
      standards established by the American Institute of Certified Public Accountants as
      specified in section 6 of the ONDCP circular. The scope of a review is
      substantially less than an examination, which expresses an opinion on the
      submission. Accordingly, OIG does not express such an opinion. No matters came
      to OIG’s attention that caused OIG to believe that the assertions do not, in all
      material aspects, reliably represent the FY 2005 obligation data presented in the
      accounting submission.




      Quality Control Review of
      PricewaterhouseCoopers, LLP (AUD/CG-06-21)

      The Department is the cognizant federal funding agency for the Institute of
      International Education, Inc., and Affiliate (IIE). OIG performed a quality control
      review of the Office of Management and Budget (OMB) Circular A-133, Audits
      of States, Local Governments, and Non-Profit Organizations, audits of IIE
      performed by PricewaterhouseCoopers, LLP (PwC), for the fiscal years ending
      September 30, 2002, September 30, 2003, and September 30, 2004. The objectives
      of the quality control review were to determine whether PwC conducted audits in
      accordance with applicable standards and met the single audit requirements;
      identify any follow-up work needed; and identify issues that may require
      management attention.

      OIG determined that IIE’s A-133 audit reports for FYs 2002, 2003, and 2004 and
      PwC’s working papers associated with the reports met the applicable auditing
      guidance and regulatory requirements specified in OMB Circular A-133, its related
      compliance supplement, government auditing standards, and generally accepted
      auditing standards. The review disclosed two issues in the FY 2003 audit that




14   Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006
 OIG reviewed the following          warranted further discussion with PwC. OIG
 qualitative aspects of the          noted that one PwC audit team member’s
 single audits.
                                     continuing professional education requirements
 •   Auditor Qualifications
                                     were not in compliance with PwC’s standards
 •   Independence
 •   Due Professional Care           before the start of audit work. OIG also found
 •   Quality Control                 that PwC auditors had not reviewed working
 •   Planning and Supervision
 •   Federal Receivables and         papers before issuing the IIE internal control
     Payables                        report.
 •   Determination of Major
     Programs                        In reviewing the FY 2004 A-133 audit report,
 •   Schedule of Expenditures
     of Federal Awards               OIG did not find deficiencies similar to the two
 •   Audit Follow-Up                 issues noted in its review of the FY 2003 audit or
 •   Reporting
                                     any other issues warranting follow-up work. On
 •   Internal Controls and
     Compliance Testing for          December 1, 2005, OIG discussed the completed
     Major Programs                  quality control reviews with PwC management,
 •   Data Collection Form            which agreed with the results.




Independent Accountant’s Report on the
Application of Agreed-Upon Procedures on
Indirect Cost Rates Proposed by Scholastic, Inc.
(AUD/CG/06-20)

In response to a request from A/LM/AQM, OIG contracted with L.F. Harris &
Associates, an independent public accounting firm, to perform certain agreed-upon
procedures on Scholastic, Inc.’s, indirect cost rates for its fiscal years ended May 31,
2005 and 2004, to determine whether the rates and cost principles were in
compliance with OMB Circular A-122, Cost Principles for Non-Profit
Organizations. Harris reported that Scholastic’s general ledger system did not
capture direct and indirect expenses in a manner that effectively identified
appropriate indirect cost pools as required by OMB Circular A-122. However,
Scholastic maintained comprehensive and detailed support for its program
expenses. As a result, Scholastic provided adequate documentation to enable the
independent accountant to compute the corporation’s indirect cost rates for its
fiscal years ended May 31, 2005 and 2004.




Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006   15
      Analytical Review of the Multinational Force and
      Observers’ FY 2004 Financial Statements and
      FY 2006 Budget (AUD/CG/06-05)

      As requested by NEA, OIG conducted an analytical review of the audited financial
      statements of the Multinational Force and Observers (MFO) for the fiscal year
      ended September 30, 2004. The purpose of the review was to determine any trends
      or significant changes that occurred between actual expenditures from FY 2003 to
      FY 2004. OIG reviewed the external auditor’s report on the audit of the FY 2004
      financial statements to determine whether it indicated any areas of concern. In
      addition, OIG reviewed MFO’s $59 million budget plan for FY 2006 to determine
      whether it was reasonable when compared with FY 2004 actual expenses.

      In general, OIG did not find anything that would require further examination;
      however, OIG did find that several accounts increased by a significant amount –
      more than 20 percent – from FY 2003 to FY 2004. MFO provided information to
      support the increased expenses; however, verifying this was outside the scope of
      this review. OIG also found that the external auditor did not highlight any areas of
      concern. Finally, OIG found that MFO’s budget for FY 2006 increased by $8
      million from the prior year. Determining whether the budget increase was
      reasonable was outside the scope of this review; however, nothing came to OIG’s
      attention that would require further examination of the FY 2006 budget.




      Application of Agreed-Upon Procedures to
      George Mason University Awards
      (AUD/CG/06-02)

      At the request of the Bureau of Educational and Cultural Affairs (ECA), OIG
      applied agreed-upon procedures to FY 2000 through FY 2004 awards to George
      Mason University (GMU), with total program costs of $999,652. The primary
      purpose of OIG’s procedures was to determine whether travel, salaries, and cost
      share amounts claimed totaling $601,401 were adequately supported and complied
      with the terms and conditions of the award agreements.




16   Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006
OIG found that GMU did not maintain adequate documentation to support travel,
salaries, and cost share amounts charged to the grants, nor did it establish a system
for accumulating and tracking cost share amounts or submit timely financial and
program reports to ECA. As a result of the deficiencies noted, OIG questioned
costs totaling $456,851. Of that amount, OIG classified $5,606 as unallowable and
$451,245 as unsupported because of inadequate or a lack of documentation. OIG
recommended that ECA require GMU to reimburse the Department for
unallowable costs and provide additional documentation for the unsupported costs.




FINANCIAL MANAGEMENT


Vienna Regional Printing Center Costs
(AUD/FM-06-19)

In response to a request from the Office of the Under Secretary for Management,
OIG compiled financial data relating to the costs of operating the Regional Printing
Center in Vienna, Austria, from information provided by various Department
sources. The information obtained by OIG indicates that the total cost of
operating the Center for FY 2005 was $1,948,134.




Independent Auditor’s Revised Report on the
Department’s 2005 and 2004 Principal Financial
Statements (AUD/FM-06-12A)

The CFO Act, as amended, requires that the Department’s Principal Financial
Statements be audited to report on whether they present fairly the Department’s
financial position and results of financial operations in accordance with accounting
principles generally accepted in the United States of America; to determine
whether the Department had an internal control structure that provided reasonable
assurance of achieving internal control objectives; and to determine whether the
Department complied with applicable laws and regulations.



Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006   17
      In FY 2005, the Department, OIG, and the external auditor, LGB became aware
      that certain financial information in the FY 2004 financial statements, primarily
      related to personal property, may have been misstated. The Department could not
      complete its work on personal property by the mandated deadline for issuing the
      audited FY 2005 financial statements, and LGB was not able to examine evidence
      regarding personal property. (See AUD/FM-06-12.) The Department subsequently
      completed its work, and on the basis of its examination of the additional
      information, LGB reissued its opinion on the Department’s 2005 and 2004
      principal financial statements without qualification. LGB satisfied itself that the
      financial statements were presented fairly, in all material respects, in conformity
      with accounting principles generally accepted in the United States of America.

      LGB found two material weaknesses in the Department’s internal controls related
      to personal property and the information system network; three reportable
      conditions related to internal controls over the financial and accounting system,
      management of undelivered orders, and managerial cost accounting; instances of
      noncompliance with provisions of applicable laws and regulations involving the
      financial management system; and that the Department was not in substantial
      compliance with the Federal Financial Management Improvement Act (FFMIA) of
      1996.




      Independent Auditor’s Report on the
      Department’s 2005 and 2004 Principal Financial
      Statements (AUD/FM-06-12)

      In its report on the Department’s 2005 and 2004 statements, LGB stated that
      during FY 2005, the Department became aware of potentially material amounts of
      property in the hands of contractors that had not been properly reported in its
      financial statements. Although the Department performed significant work to
      resolve these issues, that work was not sufficiently completed to enable LGB to
      satisfy itself as to the accuracy of the amounts reported as personal property by the
      November 15, 2005, deadline. Therefore, the external auditor found that, except
      for the effects, if any, as might have been determined to be necessary had it been
      able to examine evidence regarding personal property, the Department’s 2005 and
      2004 principal financial statements were presented fairly in all material respects, in
      conformity with accounting principles generally accepted in the United States of
      America. LGB also found material weaknesses, instances of noncompliance with




18   Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006
selected provisions of applicable laws and regulations, and that the Department
was not in substantial compliance with the FFMIA. (See AUD/FM-06-12A
above).




Management Letter Related to the Audit of the
U.S. Department of State 2005 and 2004
Principal Financial Statements (AUD/FM-06-11)

Under generally accepted auditing standards, auditors performing financial
statement audits are encouraged to report, in a separate management letter, internal
control weaknesses that do not rise to the level necessary to be reported in the
financial statement opinion. During the audit of the Department’s 2005 and 2004
Principal Financial Statements, LGB identified internal control weaknesses relating
to the Department’s compliance with the Prompt Payment Act, payroll
documentation, deferred maintenance, heritage property, accounts receivable and
payable, fund balance with Treasury, payroll accrual, time and attendance controls
at Embassy Berlin, compliance with the Anti-Deficiency Act, and the Department’s
response to the management letter related to the audit of the Department’s 2004
and 2003 Principal Financial Statements. LGB recommended that the Department
take appropriate action to address these weaknesses.




Independent Auditor’s Report on the
Department’s Special-Purpose Financial
Statements (AUD/FM-06-10)

All agencies must provide the Department of the Treasury (Treasury) with fiscal
data that are used to prepare the Financial Report of the United States. Agencies must
reclassify the amounts in their audited Department-level financial statements to a
generic financial statement format and submit the reclassified statements as part of
a year-end closing package. The Inspector General of each agency must opine upon
the closing package data as to their consistency with the audited Department-level
financial statements. At OIG’s direction, an independent external auditor audited
the Department’s reclassified balance sheet as of September 30, 2005, and the
related reclassified statements of net cost and changes in net position for the year
then ended.



Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006   19
      During FY 2005, the Department became aware of potentially material amounts of
      property in the hands of contractors that had not been properly reported in its
      financial statements. Although the Department performed significant work to
      resolve the property issue, the work was not sufficiently completed to enable the
      external auditor to satisfy itself as to the accuracy of the amounts reported as
      personal property in time to meet the November 15, 2005, deadline for issuing its
      report. (See AUD/FM-06-12A above.) Therefore, LGB found that except for the
      unavailability of evidence on some personal property, the special-purpose financial
      statements presented fairly, in all material respects, the financial position of the
      Department as of September 30, 2005, and its net costs and changes in net
      position for the year then ended in conformity with the accounting principles
      generally accepted in the United States and the presentation requirements
      prescribed in the Treasury Financial Manual.




      Independent Auditor’s Report on the Agreed-
      Upon Procedures for Federal Intragovernmental
      Activity and Balances (AUD/FM-06-09)

      Treasury annually prepares and submits to the President and Congress an audited
      financial statement covering all executive agencies. Each agency furnishes certain
      financial and operational information to Treasury, including information on intra-
      governmental activity and balances. Under OIG’s direction, LGB performed
      required procedures solely to assist Treasury in the preparation of, and the
      Government Accountability Office in the audit of, the consolidated financial
      statements of the U.S. government as of and for the year ended September 30,
      2005.

      LGB compared the Department’s trading partner data for intra-governmental
      activity and balances in the Government-wide Financial Report System to the
      Department’s general ledger and information in its audited financial statements;
      compared data in the audited financial statements to the Department’s Intra-
      governmental Closing Package and CFO representations to Treasury; and traced
      any differences between the Department and its trading partners from Treasury
      reports to explanations in the Department’s supporting documentation. The auditor
      did not note any discrepancies.




20   Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006
Audit of the International Cooperative
Administrative Support Services’ 2004 and 2003
Financial Statements (AUD/FM-06-04)

Under OIG’s direction, LGB audited ICASS’ financial statements as of September
30, 2004 and 2003, in order to report on whether the financial statements
presented fairly ICASS’ financial position and results of financial operations in
accordance with generally accepted accounting principles; to determine whether
ICASS had an internal control structure that provided reasonable assurance of
achieving internal control objectives; and to determine whether ICASS complied
with applicable laws and regulations.

LGB issued an unqualified opinion on ICASS’ financial statements as of September
30, 2004. Although LGB issued an unqualified opinion, its report brings to
management’s attention concerns about information systems security and the
inadequacy of the Department’s financial and accounting system, which is both an
internal control weakness and an issue of noncompliance with several laws and
regulations.




Management Letter Related to the Audit of the
International Cooperative Administrative
Support Services’ 2004 and 2003 Financial
Statements (AUD/FM-06-03)

During an audit of the ICASS 2004 and 2003 financial statements, LGB identified
internal control weaknesses relating to ICASS timeliness of financial reporting,
computer security, and personal property. LGB recommended that ICASS take
appropriate action to address these weaknesses. LGB also identified general
internal weaknesses in the Department’s financial management systems, which are
used by ICASS for processing and recording transactions and have an impact on
ICASS. The general internal control weaknesses related to payroll documentation,
the timeliness of Federal Employee’s Compensation Act deposits, accounts
receivable, accounts payable, and Foreign Service Retirement and Disability Fund
benefit payments and actuarial liability.




Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006   21
      Independent Auditor’s Report on Agreed-Upon
      Procedures Relating to Recreational and
      Convenience Services (AUD/FM-06-01)

      In response to a request from the CFO, OIG contacted representatives of 14
      cabinet-level agencies to identify and report on the methods they used to provide
      and fund recreational and other convenience services to their employees. OIG
      found that all 14 agencies provided fitness facilities for their employees. Although
      three agencies operated their own fitness facilities, the majority of the agencies had
      agreements with employee recreation associations or contracts with external
      contractors to operate the facilities. Most agencies provided space, and some of
      those also provided utilities and cleaning services. Three agencies provided fitness
      facility equipment. In most cases, the facility operator provided the equipment as
      well as managed day-to-day operations and provided staff. Two agencies funded
      their facilities with appropriated funds, while the remaining agencies funded their
      facilities with user fees or a combination of appropriated funds and user fees. All
      agencies reported that the method they used to operate the facility had been
      effective.

      OIG also found that 12 agencies provided other services, such as concessions,
      barber shops and hair salons, and dry cleaning to their employees. As with fitness
      facilities, most agencies used employee/recreational associations or external
      contractors to operate these services. Only one agency used minimal appropriated
      funds for its concessions.




22   Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006
PROPERTY AND PROCUREMENT


Application of Agreed-Upon Procedures of
Department of State Procurement Competitions
To Support Armored Vehicles in Iraq
(AUD/IQO-06-16)

The Department purchases vehicles of all types to support its operations
worldwide. In some instances, the vehicles require special armoring and other
protective features. To coordinate the acquisition planning, procurement, and
assignment of vehicles to posts, the Department established an Armored Vehicles
Program. OIG engaged Regis & Associates, PC, to perform agreed-upon
procedures of the procurement process for armoring services, specialized armored
vehicles, and ballistic glass, focusing on the Department’s operations in Iraq.

The agreed-upon procedures were to determine whether acquisition plans were
prepared and whether the procurements, which totaled about $43.4 million, were
adequately competed and performed in accordance with the provisions of FAR and
the Department of State Acquisition Regulations (DOSAR). For two of the three
procurement actions reviewed, armoring
services and ballistic glass, no acquisition   Value of Contracts Reviewed
plans were found in the solicitation         Purpose                       Amount
records. DOSAR requires that any                                        (in millions)
                                             Armoring                         $30.2
domestic procurement exceeding $5            Specialized vehicles               3.1
million be supported by a formal, written    Ballistic glass                   10.1
acquisition plan. Two of the solicitations      Total                       $43.4
reviewed exceeded $5 million, and            Source: Department contract and requisition
                                             documents.
therefore, OIG recommended that the
Department require written advanced
acquisition plans.

With regard to the vehicle armoring services, the Department executed the
justifications for less than full and open competition in accordance with the
provisions of FAR and DOSAR. With regard to the procurements for ballistic glass,
the Department identified adequate competition. Although the current armoring




Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006   23
      contracts are almost two years beyond their expiration date, the Department’s
      efforts to sponsor prospective bidders that require facility security clearances have
      justified the delays. This proactive approach should increase competition. Except
      as noted, the Department performed each acquisition review in accordance with
      the provisions of FAR and DOSAR.

      OIGrecommended that A/LM/AQM review existing contracts to identify any
      requirements expected to lengthen the procurement process and begin the new
      solicitation process earlier to accommodate those requirements. A/LM/AQM
      agreed and is to conduct a random sampling of acquisition plans for procurements
      exceeding $5 million to assess their impact.




      Office of Multi-Media Services Compliance With
      Government Purchase Card Internal Controls
      (AUD/PP-06-14)

      At the request of the Bureau of Administration, Office of Records and Publishing
      Services (A/RPS), OIG reviewed the Office of Multi-Media Services’ (A/RPS/
      MMS) purchase card ordering and supply process for possible waste and
      mismanagement of federal funds. Specifically, OIG analyzed and identified
      discrepancies in the purchase of CDs through the use of the government purchase
      card and evaluated the implementation of new internal controls designed to
      strengthen A/RPS/MMS’s ordering and supply management processes, including
      compliance with existing Department purchase card requirements. OIG’s review of
      records for FYs 2003-04 confirmed A/RPS/MMS’s internal review that poor
      recordkeeping and inadequate management supervision led to possible waste and
      abuse of government property, resulting in about 130,400 unaccounted for CDs
      valued at approximately $117,400. The unaccounted for CDs were about 54
      percent of a total estimated purchase of 240,960, valued at $289,152.

      A/RPS/MMS later asked OIG to validate updated purchase card procedures,
      including additional internal controls designed to strengthen ordering and supply
      management. OIG found that A/RPS/MMS management had taken significant
      steps to improve its purchase card procedures and oversight, but had not fully
      implemented all ordering, purchasing, and management control procedures as
      proposed. OIG concluded that if A/RPS/MMS followed its updated procedures, it
      would adequately strengthen the ordering and inventorying of supplies.




24   Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006
Independent Accountant’s Report on the
Application of Agreed-Upon Procedures Relating
to Bureau of Information Resource Management
Enterprise Network Management Office
GSA-FEDSIM Millenia Contract Task Order
GS-T0004AJ0049 (AUD/PP-06-08)

At the request of the Bureau of Information Resource Management (IRM), OIG
contracted with LGB to perform agreed-upon procedures on GSA FEDSIM
Millenia Contract Task Order GS-T0004AJM049 to address IRM’s concerns about
contract management. LGB found that management of this contract totaling
$123.75 million was not working effectively to benefit the Department’s IT needs.
Specifically, the use of the FEDSIM Millenia contract as a procurement vehicle has
led to the Department’s relinquishing its contracting officer and contracting
officer’s representative functions to the General Services Administration (GSA). In
government procurement, those two roles provide internal control.

The GSA FEDSIM staff assigned the role of contracting officer for procurement
by another agency could have a conflict of interest in that his or her job depends on
funds generated by the customer agencies rather than by the conscientious
application of federal procurement standards and principles. To eliminate this
conflict and to maintain internal control, OIG recommended that IRM, in
coordination with A/LM/AQM, independently procure the Enterprise Network
Management effort through an indefinite-delivery, indefinite-quantity contract.
Further, OIG recommended that A/LM/AQM make all commodity purchases
rather than use the FEDSIM Millenia task order and identify other IT commodity
purchases made outside the Department and review them for similar cost-savings.

A/LM/AQM agreed to provide contract administration for Enterprise Network
Management requirements. As a result, the Department should realize over $7.7
million in savings by avoiding unnecessary administrative costs. In addition, the
Department will not be subject to the approximately $186,000 average annual
administrative fees paid to GSA for contract administration.




Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006   25
     SECURITY AND INTELLIGENCE


     Program Management Review (Phase II) of the
     Anti-Terrorism Assistance Program (SIO/A-06-01)

     The DS/ATA Program assists the U.S. government’s war against international
     terrorism by enhancing the anti-terrorism skills of friendly nations, strengthening
     bilateral ties, and increasing respect for human rights. OIG undertook a two-part
     review to evaluate the management of the ATA Program because it has grown
     tremendously since its inception in 1983. During this phase II review, OIG found
     that DS/ATA should determine a more suitable mechanism to obtain training
     services because the cooperative agreement that it has with the training provider is
     not effective. Additionally, OIG found that although DS/ATA’s procedures for
     developing and maintaining high-quality anti-terrorism courses were effectively
     designed to yield high-quality training, procedural improvements were necessary,
     and OIG made corresponding recommendations.

                                  DS/ATA Course Evaluations

          DS/ATA’s quality assurance process includes an independent evaluation of a
          course every three years once it is presented worldwide. To perform the
          evaluations, DS/ATA obtains qualified experts. The evaluations focus on
          course quality; that is, course goals, objectives, materials, equipment,
          training facilities, language interpreters, and instructor qualifications, and
          compliance with applicable security and adult learning standards. The
          indepth course evaluation takes from one to six weeks to complete. The
          following table provides an overview of completed evaluations.
                        Status of Indepth Course Evaluations for Eligible Courses
                       Listed in the DS/ATA Course Catalog (as of March 31, 2005)
                                                         Courses
                         Status of Review            Number      Percentage
                         Current                      9           53
                         Overdue                      7           41
                         Plans to Review              1            6
                         Eligible Coursesa            17         100
                         Source: DS/ATA.
                        a
                          OIG did not include courses listed in DS/ATA’s current course catalog
                        that were developed after 2001, were under development, or were
                        offered through DS/ATA’s Consultations Branch or International Law
                        Enforcement Academy.




26   Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006
Other Audit Related Activities
During this reporting period, in addition to the work done relating to Department
and BBG operations, the Office of Audits provided support to the Inspector
General (IG) in his capacity as the Chairman of the Board of External Auditors for
the Organization of American States (OAS). In March, Audit staff assisted the IG
and the two other Board members—the Chief Financial Officer of the Ministry of
Foreign Affairs of Mexico and the Auditor General of St. Kitts and Nevis—at the
fifty-first annual meeting of the Board which included a week of discussions with
numerous officials and a presentation to the Secretary General and resulted in the
issuance of the OAS 2005 financial statement audits.




Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006   27
28   Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006
                              INSPECTIONS


SECURITY
During this semiannual reporting period, OIG issued ten security annexes in
conjunction with inspections of overseas posts and domestic bureaus and a report
on new embassy construction in Beijing, China. Seven annexes reported on
security management at embassies and their constituent posts in Bogotá, Colombia;
Kabul, Afghanistan; Riyadh, Saudi Arabia; Sanaa, Yemen; Dakar, Senegal;
Manama, Bahrain; and Lima, Peru. Three other annexes reported on
counternarcotics and counterterrorism coordination at Embassy Bogotá; RSO
resources at Consulate General Jeddah, Saudi Arabia; and security issues in the
Office of the Coordinator for Counterterrorism. A summary of these reports is
included in the classified annex to this semiannual report.




IRAQ PROGRAM REVIEW


Inspection of Rule-of-Law Programs, Embassy
Baghdad (ISP-IQO-06-01)

At the time of the inspection, the U.S.
government had spent about $400
million on rule-of-law programs in Iraq
other than police training. These
resources were dedicated to
strengthening Iraq’s police, courts, and
prisons and to promoting the
constitutional and legislative process,
public education, access to legal
services, commercial law, and
anticorruption mechanisms. The
                                                   Inspector General Howard J. Krongard pictured in
                                                       front of the Regional Embassy in Al-Hillah



Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006      29
      money appears to have been well spent. In its review of rule-of-law activities
      under the Ambassador’s authority, OIG found a number of well-conceived
      initiatives being undertaken in an unstable security environment. Assisting the
      Iraqi government’s ability to sustain these activities by adopting a coherent
      managed approach to the rule of law is essential. Therefore, OIG recommended
      that the embassy develop a plan informed by strategic plans developed by Iraqi
      government ministries to guide the longer-term approach as it works with other
      members of the Coalition towards transferring primary responsibility for rule-of-law
      initiatives to the Iraqi authorities. The Ambassador directs a rule-of-law task force
      but interagency coordination remains a challenge.

      OIG recommended that Embassy Baghdad designate the rule-of-law coordinator to
      work exclusively in that capacity; that it design and implement a strategic plan to
      serve as the basis for the rule-of-law section of the Mission Performance Plan; and
      include the senior Department of Justice representative in Iraq in the executive
      structure of the rule-of-law task force.

      OIG noted that basic to the success of all hopes for democracy and good
      governance in Iraq is an effective anticorruption regime, and OIG urged support for
      Iraqi efforts to design a regime, including a training facility for anticorruption
      personnel from, and with the support of, Iraq’s Commission on Public Integrity,
      Board of Supreme Audit, and corps of Inspectors General.




      DOMESTIC BUREAUS


      Inspection of the Bureau of Diplomatic Security
      Directorate for International Programs
      (ISP-I-06-03)

      The Directorate for International Programs (DS/IP) is responsible for a budget of
      approximately $950 million, which is two-thirds of the Bureau of Diplomatic
      Security’s total budget. DS/IP provides management oversight, operational
      guidance, and funding necessary to enhance the security of U.S. overseas personnel
      and facilities. At the time of the inspection, DS/IP was transitioning to new
      leadership and had vacancies in several key positions, but was nevertheless well



30   Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006
managed and productive. In addition, it was able to maintain the performance of
its highest priority programs during a time of budget uncertainties and increasing
security threats. Improvements are needed in financial management of key DS/IP
programs to better align the bureau’s budget to actual program costs. OIG
recommended that DS clarify the relationship between the Force Protection
Detachment personnel assigned to an embassy and the embassy’s regional security
officer (RSO) to ensure the separation of security responsibilities between the
chief of mission and the area combatant commander. In addition, OIG
recommended reviewing the Worldwide Personal Protection Services contract,
totaling approximately $400 million annually, to protect against billing errors and
overcharges and to see that there is adequate staff to integrate previous task orders
into the contract.




Inspection of the Office to Monitor and Combat
Trafficking in Persons (ISP-I-06-04)

With strong backing from the Congress and the Administration, the Office to
Monitor and Combat Trafficking in Persons (G/TIP) has successfully made
monitoring and combatting trafficking an important foreign policy goal.
Furthermore, G/TIP’s annual assessment and ranking of foreign nations’ anti-
trafficking performance, and the threat of sanctions for countries that fail to meet
minimal standards, is a useful vehicle to prod delinquent governments.

G/TIP and the regional bureaus are beginning to improve their working relations,
and procedures are in place to resolve most major policy differences. Although the
fight against trafficking for sexual purposes has dominated its agenda, G/TIP has
also given appropriate attention to the trafficking involved in such areas as child
labor, bonded labor, and involuntary servitude. OIG recommended that G/TIP
use the Bureau Performance Plan to prioritize the many useful activities it could do
and strengthen grants management, which was expected to total $17 million in FY
2005.




Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006   31
      Inspection of the Office of the Senior
      Coordinator for International Women’s Issues
      (ISP-I-06-05)

      The Office of the Senior Coordinator for International Women’s Issues in the
      Office of the Under Secretary for Global Affairs (G/IWI) does a creditable job of
      publicizing U.S.-sponsored programs that promote the rights and interests of
      women and is a strong advocate for keeping women’s issues at the forefront of U.S.
      policy toward Afghanistan. G/IWI also effectively manages $10 million in grants
      for the Iraqi Women’s Democracy Initiative, directing the money to training,
      communication, voter education, and other successful projects.

      G/IWI operates as a separate Department unit but lacks a clear mandate, which
      leads to tension and uncertainty between the Office of the Under Secretary for
      Global Affairs and G/IWI. OIG recommended that the Department define
      G/IWI’s organizational structure and purpose in relation to the Office of the Under
      Secretary.




      Inspection of the Bureau of Intelligence and
      Research (ISP-I-06-10)

      The Bureau of Intelligence and Research (INR) has a reputation for producing
      high-quality, accurate, and objective intelligence assessments; its executive
      direction is solid, and its leadership fosters and supports independent thought and
      dissent. Although morale was high, many staff expressed a need for greater
      direction and focus from senior leadership.

      The transformation of the intelligence community has placed new demands on
      INR, as has the global war on terrorism. OIG determined that INR needs to
      develop a process for continually assessing the value of its written products and to
      explore ways to provide greater support to chiefs of mission and Department
      leaders in this new demanding environment.




32   Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006
OIG also determined that INR’s staffing is both a strength and a challenge.
Although fewer in number, INR analysts have spent more time and have greater
experience than their counterparts in other intelligence agencies. OIG
recommended additional travel and training opportunities to maintain the staff ’s
analytical strength.




Inspection of the Office of the Coordinator for
Counterterrorism (ISP-I-06-25A)

The Office of the Coordinator for Counterterrorism (S/CT) has too often been
viewed as marginal to the global war on terrorism because of a lack of leadership,
insufficient resources, and the difficulty of helping to coordinate the wide scope of
counternarcotics efforts.

This has eclipsed the hard work of dedicated employees, and caused low morale
and difficulty in recruiting and retaining employees. The new coordinator has
recruited an experienced management team that has begun to reinvigorate S/CT
and raise morale.

S/CT is seeking ideas and support from missions in attacking three of terrorism’s
strategic elements: leadership, sanctuaries, and roots. To realize this vision, the
coordinator has requested 36 new domestic positions and a budget increase from
$134 million in FY 2005 to more than $351 million in FY 2007.

The coordinator has energetically and effectively engaged Congress and domestic
and international publics. S/CT has usefully established an Office of Homeland
Security Affairs to coordinate with the National Security Council, the President’s
Homeland Security Advisory Council, the Department of Homeland Security, and
other executive branch agencies on homeland security issues. S/CT needs to
strengthen its contract administration and funds management and clearly define and
strengthen its oversight role in the Antiterrorism Assistance Program.




Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006   33
      OVERSEAS MISSIONS


      Inspection of Embassy Bamako, Mali (ISP-I-06-12)

      Embassy Bamako has managed its limited resources well to meet U.S. goals in Mali,
      whose government has assisted in counterterrorism initiatives in the region. The
      embassy has promoted democracy and successfully balanced humanitarian and
      civic action programs along potential terrorist transit routes in the north, and
      education, economic, and agricultural development projects under way in the south
      promote stability and growth. Thanks to a few key officers, mission morale is
      generally good, and interagency coordination and cooperation are exemplary.

      A challenge for the embassy will be continuing its reporting and analysis while
      managing a large summer staff turnover and preparing to move to a new embassy
      compound in summer 2006. OIG recommended that the embassy establish a plan
      to support the sophisticated new systems in the new compound and that the
      Department convert the Diplomatic Readiness Initiative positions in the economic
      section and front office to permanent positions.




      Inspection of Embassy Kabul, Afghanistan (ISP-I-06-13A)

      Embassy Kabul is a dangerous and stressful operating environment. Sringent
      security requirments constrain work schedules, consume resources, restrict
      mobility, and affect post morale. OIG found an energetic staff engaged in
      counterterrorism, counternarcotics, and counterinsurgency, as well as the broad
      task of nation-building in a post-conflict environment, which will require
      significant human and financial resoureces.

      OIG commended the embassy for its steps to wean the Afghan Government from
      over-dependence on the U.S. Government for policy guidance and decisions.
      However, OIG also found a lack of institutional memory to be an impediment to
      good executive direction and challenges in attracting and maintaining qualified
      staff to the post.




34   Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006
                                                        Afghanistan was the source of
                                                        almost 90 percent of the global
                                                        production of raw opium in
                                                        2004. Inevitably,
                                                        counternarcotics issues will vie
                                                        with counterterrorism and
                                                        counterinsurgency on the U.S.
                                                        government’s policy agenda.
                                                        Meshing these critical objectives
                                                        is neither easy nor automatic. In
                                                        addition, the 23 Provincial
                                                        Reconstruction Teams scattered
                                                        around Afghanistan need a more
                                                        defined strategy, closer
   Inspector David Zweifel and Inspector General
   Howard J. Krongard (right) at the Border Police
                                                        coordination and supervision,
   Station at the Kabul Airport                         and evaluation of the cost-
                                                        benefit ratio of their projects.




Embassy Riyadh, Saudi Arabia, and Constituent
Posts (ISP-I-06-14A)

Key U.S. objectives in
the U.S.-Saudi
                                               Visa Processing at Dhahran Center
relationship are rooting
out terrorist cells in              Embassy Riyadh was proposing to start nonimmigrant visa processing
Saudi Arabia, controlling           at Consulate General Dhahran, but it had no hard data about the
the flow of money to                demand for visas in Saudi Arabia’s Eastern Province. OIG suggested
extremist groups abroad,            that the Bureau of Consular Affairs (CA) could produce accurate
and supporting political,           statistics on applicant numbers for FY 2005 from its combined consu-
economic, and social                lar database. In consultation with the Riyadh consular section, OIG
reforms. The                        designed a set of parameters to identify Saudi visa applicants from
Ambassador and deputy               the Dhahran consular district. In a series of e-mail exchanges, CA
are effectively managing            replied positively to OIG’s request to search the database. Less than
these issues and their              one week after the initial request, CA informed OIG in Riyadh of its
staff in an environment             results. With verifiable statistics available, the Department could
shaped by continuing                accurately estimate the physical and personnel resources needed to
                                    appropriately support a visa operation in Dhahran.




Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006   35
      security concerns. Those concerns led the Department to order nonemergency
      employees and family members to leave the country in April 2004. However, the
      Department’s assigning staff to one-year, unaccompanied tours of duty imperils
      good management. There are long staffing gaps in key positions, inexperienced
      officers in middle-grade positions, and only a handful of seasoned officers available
      to supervise and coordinate.

      Employees in the consular sections and DHS operations in Riyadh and Jeddah
      coordinate well to fulfill the mandated visa issuance requirements. However, they
      are unable to respond on a timely basis to the rising Saudi interest in travel to the
      United States for business and study. OIG endorses the mission’s plans to
      reinstitute the issuance of nonimmigrant visas in Dhahran once a permanent staff
      is in place and the new construction is completed. The United States is losing an
      estimated $5 billion a year in sales because many U.S. companies have followed the
      Department’s travel advisory and moved their representatives from Saudi Arabia.

      The mission needs to clarify its public diplomacy strategy. Embassy Riyadh and
      the two consulates general need to coordinate and discuss regularly their goals for
      media contact and public diplomacy. Although key reporting areas were left
      uncovered, Embassy Riyadh and the consulates general have produced a large
      amount of informative and influential reporting.


             Consulate General Jeddah Regional Security Officer
                              (ISP-S-06-15A)

          Following its inspection of Embassy Riyadh, OIG issued a report to the
          Director General recommending that a full-time regional security officer
          (RSO) be assigned to Consulate General Jeddah within 30 days. OIG noted
          that temporary duty personnel had filled the position since shortly after the
          terrorist attack in December 2004. The assignment of short-term, temporary
          duty RSOs did not provide sufficient continuity or productive liaison with host
          nation agencies at this post. The Department responded quickly, and a new
          RSO arrived in January 2006.




36   Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006
Inspection of Embassy Bogotá, Colombia
(ISP-I-06-16A)

The U.S. mission in Colombia is one of the largest in the world, with 25 agencies
represented at Embassy Bogotá. The success of Embassy Bogotá and its
multifaceted support to the government of Colombia’s “Plan Colombia,” can be
attributed to the highly effective interagency cooperation created by the
Ambassador and the day-to-day coordination of the deputy chief of mission. The
Department had a secure chancery built in 1995 at a cost of $65 million, and
funding was approved in 2005 for a $30.6 million annex. The mission’s security
and administrative operations, however, cannot support continued growth in
staffing, which has doubled in ten years. The mission should conduct a top-to-
bottom, interagency, rightsizing review as a first step in the process of reducing
personnel, streamlining operations, and consolidating services.

Embassy Bogotá’s narcotics affairs section is the largest U.S. operational
counternarcotics assistance program in the world, with FY 2005 funding of $463
million and an authorized staff of 574. The narcotics affairs section is working
toward its long- term goal of transferring its programs entirely to the Colombian
government. The section promotes rule of law through programs that extend
beyond traditional training of police, prosecutors, and judges to integrated,
coordinated, institutional democracy-building throughout Colombia.

In one of the largest consular sections worldwide, four of the five American
supervisors are in positions higher than their rank, and a sixth position remains
vacant. Nonetheless, the section provides good service while paying considerable
attention to detecting applicants who are narcotics traffickers or terrorists.




Embassy Sanaa, Yemen (ISP-I-06-19A)

Embassy Sanaa is collegial and well-run, and all embassy sections, including the
U.S. Agency for International Development (USAID), the Middle East Partnership
Initiative (MEPI), the legal attaché, and the military detachments, are fully
involved in achieving its counterterrorism goal. Many of the embassy’s
unacceptable human resource practices are a direct result of not having a fully
trained direct hire, American human resources officer at post. The embassy needs



Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006   37
      an additional American position to manage its more than 500 locally employed
      staff, including the 277 guards at the chancery and residences and the language
      institute’s teachers.

      Poor communication between MEPI and the embassy needs strengthening, as it
      limits embassy involvement in program planning and execution of MEPI grants
      and, therefore, threatens MEPI’s effectiveness. The Yemeni American Language
      Institute is an important embassy outreach tool. Although the institute is a success
      story for the public diplomacy effort, OIG believes the embassy should privatize it.

      OIG stated in its March 2000 inspection report that the United States had no
      diplomatic or consular presence in Aden and should dispose of the U.S.
      government-owned office building there. The U.S. government has not occupied
      the building since June 1969, and there remains no reason to keep it. The embassy
      must either determine the viability of a land swap or donate the property to the
      Yemeni government.

             Fraud Prevention Efforts at Embassy Sanaa, Yemen

          OIG found Embassy Sanaa has an excellent fraud prevention operation.
          The OIG review confirmed that widespread corruption and weak procedures
          for obtaining local civil documents often require DNA testing and other
          documentation from visa applicants. Virtually any non-Yemeni has little
          difficulty in obtaining a Yemeni passport; thus, the embassy was promoting
          several projects with the Yemeni government, such as the introduction of a
          national identity card, which should greatly improve document reliability. OIG
          lauded the embassy’s efforts and recommended that these projects be
          formally included in the FY 2008 Mission Performance Plan. OIG believes
          these improvements could be a model for combating document fraud at
          consular posts worldwide.




      Inspection of Embassy Dakar, Senegal (ISP-I-06-20A)

      Embassy Dakar is well managed, and morale is high. All of its sections cooperate
      toward agreed-upon goals and receive strong administrative support. However, the
      embassy averages over 100 visitors on temporary duty per month, and it cannot
      house additional staff or agencies in its present facility. In addition, the embassy’s
      International Cooperative Administrative Support Services (ICASS) Council is
      paying costs associated with regional positions located in Dakar, and these costs
      should be distributed to the posts receiving the services.


38   Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006
The embassy’s reporting and public diplomacy activities properly focus on Senegal’s
Muslim population and on the issues of democracy, transparency, and governance.
The economic section’s workload is increasing, but the current high quality of
reporting, visitor support, and program management cannot be sustained with the
present level of staff.

Embassy Dakar’s oversight responsibility, reporting, and engagement in Guinea-
Bissau is increasing, but this is happening without overall guidance or coordination.
The Department has not provided a secure location in Guinea-Bissau or policy
guidance regarding the level of risk acceptable for temporary duty personnel to
work there. In addition, the administrative support is insufficient.




Inspection of Embassy Manama, Bahrain
(ISP-I-06-21A)

Embassy Manama’s policy advocacy is tightly keyed to U.S. strategic goals in the
Middle East, and its resource management is efficient and economical. Although
security and counterterrorism are post management’s top concerns, regional
stability, democratic reform, and trade and investment lead the strategic goals.

The embassy’s policy instruments include a grant-based military assistance program
and the MEPI. In the latter case, however, uncoordinated proposals in a variety of
channels limit the embassy’s ability to supervise local projects and thereby threaten
the initiative’s overall effectiveness and efficiency. The embassy’s grants
management needs to meet standard criteria through better documentation and
communication.

The management office is effective and has creatively distributed responsibilities to
ensure that the minimum number of employees are able to provide excellent
service. The information management program is comprehensive and highly rated,
but information systems security could be improved, and the locally employed staff
need training in consular systems.




Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006   39
      Inspection of Embassy Conakry, Guinea
      (ISP-I-06-22)

      Embassy Conakry is properly focused on strengthening Guinea’s civil society and
      existing institutions to maximize the chances for a peaceful political transition
      when the long reign of Guinea’s current president ends. The embassy is rightsized
      for its goals, and its reporting on political and economic developments is excellent.

      Interagency coordination is exceptional. Although the ICASS council and the
      housing committee are working well, OIG informally recommended that Embassy
      Conakry and USAID combine housing pools in accordance with Department
      regulations. Many mission personnel fault management section leadership for
      inattention to customer concerns.




      Inspection of Embassy Lima, Peru
      (ISP-I-06-24A)

      The Ambassador and his newly arrived deputy chief of mission are effectively
      leading the mission forward on an array of difficult U.S. foreign policy challenges.

      The embassy’s public affairs section plays a lead role in informing Peruvian publics
      of the impact of narcotrafficking on Peru’s civic and private institutions. The
      section is also conducting highly successful democracy-building mutual
      understanding programs.

      The narcotics affairs section is focused on ending Peru’s status as the second
      largest producer of cocaine in the world, but its effectiveness is constrained by the
      limitations of the Peruvian government and the lack of political support for aerial
      eradication of drug crops.

      The consular operation in Lima is efficient and well managed, but its poor physical
      layout limits its ability to address a growing immigrant visa workload and to prepare
      for a return to higher levels of nonimmigrant visa processing. A professional space
      planner is needed to reconfigure existing space. In addition, the consular agency in
      Cusco does not provide a full range of services, nor does it maintain regular office
      hours or professional recordkeeping for its emergency services to American citizens
      in the area. The embassy needs to address the consular agency in Cusco
      shortcomings and make its operations more professional.


40   Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006
THEMATIC REVIEWS


Review of the Department of State’s Country
Reports on Terrorism (ISP-S-06-07)

OIG received a congressional request to review the preparation of the
Department’s 2004 Country Reports on Terrorism. The request also asked that
OIG follow up on recommendations made in its review of the Department’s 2003
report.

In April 2005, less than one month before it was to issue its 2004 mandated annual
reports on terrorism, the Department of State decided to cease publishing the
report, Patterns of Global Terrorism. Instead, it released Country Reports on Terrorism,
which did not include the statistical data on significant international terrorist
incidents found in the Patterns report. At the same time, the National
Counterterrorism Center issued a separate report, A Chronology of Significant
International Terrorism, 2004.

The Office of Inspector General examined the process of producing the
Department’s 2004 report on terrorism and found that the process was slightly
different from that of prior years, but that the report’s format did not initially differ
from that of the 2003 report. The National Counterterrorism Center’s report,
meanwhile, contained most of the statistical data that previously had been included
in the Patterns reports.

Even with the content revisions, the Department’s Country Reports on Terrorism
complied with the relevant law. However, OIG noted that the Department’s
decision to no longer include statistical data had been made very late in the
process, after it was widely known that the data indicated a significant increase in
the number of incidents. Additionally, Members of Congress had not been advised
of the Department’s decision until several days before the report was issued.




Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006   41
     Rightsizing the U.S. Government Presence
     Overseas: A Progress Report (ISP-I-06-11)

     The Department has taken limited but positive steps to address rightsizing issues
     of importance to the Congress and the Administration. OIG found that the
     Department is implementing a significant number of new rightsizing initiatives,
     most of which are still too new to assess.

     The Department is also moving forward on an ambitious 14-year construction cycle
     that will build 150 new embassy compounds, at an estimated cost of $17.5 billion.
     Newly developed procedures to forecast future embassy occupancy levels may
     ultimately prove more effective than the previous space requirements planning but
     they have not yet been validated independently. Rightsizing is likely to remain at
     the top of the Department’s management agenda in the coming years because of
     high construction and operating costs overseas, security vulnerabilities, and
     continuing problems in assigning U.S. government personnel in a disciplined, well-
     planned manner.

     OIG inspections highlighted several common issues at overseas missions affected
     by rightsizing imbalances. First, management of interagency staffing levels through
     the National Security Decision Directive-38 (NSDD-38) mechanism is often
     problematic, with poor coordination between mission and Washington-level
     decisions on staffing and resources. Second, duplication of administrative support
     services between the Department and other agencies remains an obstacle to
     reducing costs and realigning overall mission staffing levels. Third, growth in
     staffing at posts in some cases does not bear a clear relationship to national
     interests or to limitations of secure office space and operational funding. Fourth,
     despite recent improvements, staffing shortfalls at missions of critical importance
     to U.S. national security highlight continuing difficulties in assigning personnel to
     where they are most needed.

     Absent a commitment to fundamentally revise NSDD-38 or the ICASS system,
     OIG believes that further consolidation of services at regional centers
     (regionalization) offers the best opportunity to reduce costs and security
     vulnerabilities at overseas missions. OIG found that the Department’s major
     regional centers generally deliver services in a cost-effective, efficient manner. At
     the same time, consolidation of administrative support at regional centers has
     proceeded without a clear, Department-wide plan, standardized service
     expectations, and dedicated interagency funding. Informal regional service centers
     have emerged but with little evident long-term planning to ensure that they have


42   Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006
appropriate facilities, budget resources, and management structures commensurate
with their responsibilities. The Department should develop a more encompassing
strategy to maximize the potential cost and security benefits of the regional
services concept.




Implementation of Computer Aided Job Evaluation
at Selected Overseas Posts (ISP-I-06-17)

OIG reviewed the implementation and effectiveness of the Computer Aided Job
Evaluation System (CAJE), which is the new method of job evaluation to
determine the grade levels and pay of locally employed staff. Of the 25 overseas
missions inspected in FY 2005, 13 had implemented CAJE, and all human
resources (HR) officers and local-hire HR specialists had received CAJE training
and certification. However, very few management officers had been trained or
certified in CAJE. This created problems, especially at the smaller posts that did
not have an HR officer and had to rely on regional HR officers for support with
CAJE implementation. Most HR officers and specialists said CAJE reduced the
time to evaluate positions; however, the workload to implement CAJE was
tremendous. Executive management at a few posts was not committed to
implementation of CAJE.




Review of Middle East Partnership Initiative
Coordination and Implementation (ISP-I-06-18)

There have been persistent communications problems in the Middle East
Partnership Initiative (MEPI) between the Office of Middle East Partnership
Initiative in the Bureau of Near Eastern Affairs (NEA/PI) and embassies having
MEPI programs. NEA/PI is aware of areas in the MEPI program needing
improvement and is diligently working to make those improvements.

MEPI is an example of transformational diplomacy at work, and there is general
agreement that, at the macro level, MEPI works and is a useful tool for diplomats.
MEPI’s programs support overarching, strategic U.S. policy objectives, such as the
Administration’s freedom strategy of promoting reform and democracy in the
Middle East and North Africa and the objective of addressing Islamic extremism.



Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006   43
                                         BEST PRACTICES



              Bogotá, Colombia

              Best Practice: Consolidation of Countrywide Fuel
              Procurements

              Issue: Embassy Bogotá expends approximately $25 million a year
              in fuel procurements to support counternarcotics programs. Fuel
              is procured under labor-intensive blanket purchase agreements
              and contracts – 31 separate documents in all. The contracts are
              difficult to manage efficiently and have widely varying levels of
              management controls.

              Response: Embassy Bogotá entered into discussions with the
              Defense Logistics Agency to secure countrywide fuel agreements,
              under which the latter organization provides fuel at centralized
              locations and offers computerized recordkeeping.

              Result: The U.S. government may dramatically streamline con-
              tract processes, save hundreds of thousands of dollars in direct
              fuel costs, and improve management controls over fuel.



              Dakar, Senegal

              Best Practice: A Cashless System for Property Sales

              Issue: U.S. embassy property sales receive large sums of cash,
              often in different currencies. Large sales require two or more
              Foreign Service national cashiers and an American supervisor.

              Response: Embassy Dakar set up a temporary account at a local
              bank. All bidders are required to place a deposit in the account.
              No money changes hands, and the bidder has ten days to deposit
              the entire cash payment in the temporary account.

              Result: The need for management control of large, often unwieldy
              sums of cash is eliminated.




44   Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006
                    INFORMATION TECHNOLOGY




Protecting critical information and information systems continues to receive
significant congressional and executive management attention. With the passing of
the E-Government Act in the aftermath of September 11, 2001, Congress formally
recognizes the importance that it plays in protecting national security and the
economic interests of the United States. More specifically, Title III, the Federal
Information Security Management Act (FISMA 2002), requires federal agencies to
develop, document, and implement a comprehensive plan to protect the
confidentiality, integrity, and availability of mission-critical information and
systems. FISMA provides a framework for ensuring the “effectiveness of security
controls over information resources and systems that support Federal operations
and assets.”

Likewise, the Department realizes that an effectively implemented information
security program is vital to the organization, as it relies heavily upon the
confidentiality, integrity, and availability of mission-critical data. Department
officials are focusing more intently on information technology (IT) as a facilitator
in their efforts to promote transformational diplomacy and streamline existing
information management support operations throughout the Department. As part
of that initiative, they are reviewing IT business processes and information security
initiatives to ensure a more robust and efficient program.

During this semiannual reporting period, the OIG Office of Information
Technology (OIG/IT) worked with the OIG Office of Inspections as part of a
larger multidisciplinary OIG team inspecting posts in the Bureaus of African
Affairs, Near Eastern Affairs, and Western Hemisphere Affairs, as well as several
domestic bureaus. Overseas posts inspected included U.S. Embassies in Bamako,
Kabul, Riyadh, Bogotá, Sanaa, Dakar, Manama, Conakry, and Lima. Additionally,
OIG/IT inspected the Bureau of Diplomatic Security Directorate for International
Programs, the Office to Monitor and Combat Trafficking in Persons, and the Office
of the Senior Coordinator for International Women’s Issues.

Information management and information security operations were evaluated to
assess their effectiveness. As a result, a number of issues requiring attention and
action by the Department were identified, resulting in recommendations being
issued. These included, but were not limited to, documentation related to mission-
wide security program planning and management, system and policy access



Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006   45
      controls, inadequate separation of key IT duties, change control management for
      hardware and software deployment, and IT service continuity planning
      documentation.

      The team reviewed system security plans, mission-critical risk assessments, and
      certification and accreditation packages. These efforts identified missing or
      inadequate systems documentation, including standard operating procedures,
      security plans, and contingency plans. Further, they identified inconsistent IT
      training, inadequate resources, and lack of centralized operations for end-user
      support.

      OIG recommendations have prompted the Department to respond with several
      actions for correcting deficiencies noted in the evaluation and inspection reports.
      These involved initiatives for implementing stricter policies regarding system
      security controls, IT training, and discussions regarding standardization and
      regionalization of IT support services. Further, OIG recommendations have
      initiated improvements in the certification and accreditation, patch management,
      and information systems security officer programs; these recommendations will be
      reviewed during the upcoming FISMA review for compliance.




46   Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006
                                 INVESTIGATIONS



EMBEZZLEMENT
In a joint investigation with USAID, OIG determined that a Foreign Service
national (FSN) cashier serving at a U.S. embassy in Africa embezzled more than
$200,000 from USAID and the Department. The investigation revealed that the
cashier embezzled approximately $120,000 from the USAID mission during a ten-
year period ending in 2003. Subsequently, the subject was employed by the
embassy and embezzled approximately another $93,000 before the thefts were
uncovered in early 2005. When interviewed by agents of both agencies, the
subject confessed to both embezzlements and was subsequently indicted by a
federal grand jury in Charleston. On December 29, 2005, the former cashier
pleaded guilty to embezzling $200,000 from the embassy and the USAID mission.
As of the date of this report, sentencing is pending. (05-044)



OIG joined an ongoing investigation by the GSA OIG, into allegations that a
Department visa courier used his GSA-issued gasoline purchase credit card for his
own personal use. Over a two-and-a-half year period, the visa courier improperly
charged $5,259.58 on the card. On October 18, 2005, agents of both investigative
agencies arrested the subject. On October 24, 2005, the subject resigned from the
Department. (06-003)



OIG conducted an investigation of two Department timekeepers who conspired to
fraudulently claim overtime by forging their supervisors’ signatures on time and
attendance certifications and by entering false information into the Department’s
computerized time and attendance system. Over several years, the two
timekeepers submitted approximately $100,000 in fraudulent overtime claims. On
January 4, 2006, the Bureau of Human Resources (HR) proposed that one of the
timekeepers be terminated from employment. The other timekeeper resigned from
employment shortly afterward. After their cases were referred to the U.S.
Attorney’s Office, Eastern District of Virginia, one of the timekeepers pleaded
guilty to the scheme. Her sentencing is pending, while the other timekeeper has
elected to go to trial. Trial is pending. (05-012)


Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006   47
      OIG conducted an investigation into allegations that a Department contractor
      committed fraud by engaging in double-billing for services rendered. The
      investigation did not determine any intentional wrongdoing, but did uncover
      $20,800 in unintentional double-billing. On January 27, 2006, the contractor
      reimbursed $20,800 to the Department. (03-028)




      THEFT OF GOVERNMENT PROPERTY
      OIG conducted an investigation of a Department employee who stole six flat
      screen computer monitors from a Department office. The employee obtained the
      monitors from a Department office that had placed them on an excess property list
      by claiming he was taking them for official purposes. The employee then gave the
      monitors to friends and family members. OIG was able to retrieve five of the six
      monitors, which were valued at approximately $200 apiece. On November 22,
      2005, HR notified the employee that it was proposing that he be terminated from
      employment. (05-036)




      FALSE CLAIMS
      OIG initiated an investigation into allegations that a Department employee
      submitted several false claims for reimbursement for local travel in which she
      forged the signature of the authorizing official. The investigation determined that
      the employee filed a total of seven false claims for reimbursement totaling $488.
      On December 23, 2005, HR notified the employee that it was proposing that she
      be terminated from employment. (05-059)




      CONTRACTING IRREGULARITIES
      OIG initiated an investigation into allegations that a former Department
      contracting officer’s representative failed to recuse himself from involvement in
      recommending a Department contractor for a $3.1 million contract despite the fact



48   Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006
that he had already agreed to post-retirement employment with the contractor. On
February 24, 2006, the contractor signed a settlement agreement with the
Department of Justice, agreeing to pay $500,000. Civil conflict of interest
prosecution of the former Department employee is ongoing. (04-009)




PASSPORT FRAUD
As part of its ongoing Passport Sentinel initiative, OIG opened an investigation of
a private citizen in North Carolina who fraudulently obtained a U.S. passport. In a
joint investigation with the Social Security Administration (SSA), OIG determined
that the subject obtained the passport using a false identity established under the
name and social security number of a deceased infant. The subject was arrested,
and on July 6, 2005, pleaded guilty to two counts of making false statements on a
passport application. On November 28, 2005, the subject was sentenced to three
years probation, fined $2,000, and ordered to pay a $200 special assessment fee.
(05-032)




EMPLOYEE MISCONDUCT
OIG initiated an investigation into allegations that several Department employees
violated U.S. customs regulations and misused the diplomatic pouch by shipping
sets of counterfeit golf clubs purchased during official travel to the People’s
Republic of China. When interviewed, the employees confirmed that they had
purchased the golf clubs and shipped them via the diplomatic pouch, but claimed
they were unaware that doing so was against regulations. During the investigation,
several of the employees involved resigned or retired from the Department. On
December 20, 2005, HR notified the remaining employee that it was proposing he
be suspended for three days. (04-051)



OIG initiated an investigation into allegations that a U.S. ambassador serving
overseas misused embassy vehicles and improperly solicited and accepted gifts.
The investigation determined that the ambassador allowed his wife to drive an




Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006   49
      embassy vehicle on personal business when he was not present, solicited gifts from
      a prohibited source, and failed to report gifts he received as required. On March
      24, 2006, HR proposed a 45-day suspension for the ambassador. (04-018)




      FOLLOW-UP ACTIONS


      VISA FRAUD

      A joint OIG investigation with the Department of Labor OIG, IRS, FBI, and DHS
      revealed that an employment and immigration services company based in Falls
      Church, VA, falsified employment-based visa applications on behalf of its
      employer clients by claiming the employers had an existing need for skilled workers
      that could not be filled from the local job pool of U.S. workers.

      The investigation determined that false certifications were used to secure visas for
      foreign nationals to enter the United States. A search warrant was executed at four
      locations, including the offices of the employment and immigration services
      company. The investigation revealed the company filed at least 1,400 fraudulent
      visa applications with the Department as part of this scheme. Illegal immigrants
      were charged as much as $120,000 each to obtain visas under false pretenses.

      A total of seven individuals were indicted or agreed to plead guilty in U.S. District
      Court, Eastern District of Virginia, on charges of conspiracy to commit
      immigration fraud, conspiracy to encourage an alien to unlawfully enter the United
      States, money-laundering and misprision of a felony.

      On May 20, 2005, one defendant was sentenced to two years imprisonment, and
      two years supervised release and fined $1,500. On August 12, 2005, another
      defendant was sentenced to two years’ imprisonment and two years probation and
      fined $750.

      On October 21, 2005, a third defendant was sentenced to 70 months
      imprisonment. On November 18, 2005, a fourth defendant was sentenced to four
      months imprisonment, six months community confinement, and three years
      supervised release and was fined $7,000.



50   Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006
On December 2, 2005, the remaining three defendants were sentenced. One
received 44 months imprisonment and three years supervised release. Another
received 18 months imprisonment and three years supervised release. The third
received 15 months imprisonment and two years supervised release. The subjects
also were required to forfeit over $3.2 million that was determined to be proceeds
from the scheme. (See OIG, Semiannual Report, April 1, 2005, to September 30, 2005,
pp. 60-61.) (05-019)




FALSE CLAIMS

OIG conducted an investigation of a senior Foreign Service officer who applied for
and received Separate Maintenance Allowance payments for her spouse and child
despite the fact that her dependents were residing in the city to which she was
assigned. On September 8, 2004, HR proposed a five-day suspension for the
officer. On November 7, 2005, the subject agreed to a civil settlement with the
Department amounting to $10,800 in reimbursement. (See OIG, Semiannual Report,
April 1, 2004, to September 30, 2004, p.80.) (02-003)




Types of Cases*




                        * = May not equal 100% because of rounding.




Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006   51
      Hotline
                                        Held for action within OIG                  27

                                        Referral to other offices for action       118

                                        No action necessary                         51

                                        Total allegations received                 196




52   Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006
                  APPENDIX 1: DEPARTMENT OF STATE
                      INVESTIGATIVE ACTIVITIES


Criminal Investigative Activities
Indictments/Information                                                              2
Convictions                                                                          2
Sentencings                                                                          7
         - Imprisonment                                                     147 Months
         - Probation                                                        204 Months
Referrals for Prosecution                                                            4
Referrals for Prosecution Declined                                                  1
Criminal Judgments/Restitutions                                             $3,342,245.00

Civil Investigative Activities
Civil Referrals                                                                      4
Civil Declinations                                                                 2
Civil Recoveries                                                             $510,800.00

Administrative Investigative Activities
Administrative Referrals                                                             4
Personnel Actions
         - Removals                                                                  4
         -Suspensions                                                                1
         -Reprimands/Admonishments                                                   0
         -Reimbursements                                                             7
Administrative Recoveries                                                      $35,368.31

Total Investigative Recoveries (Judicial and Administrative)                $3,888,413.31


Investigative Workload
Cases Pending (9/30/05)                                                              67
New Cases Opened                                                                     17
Cases Closed                                                                         28
Cases Pending (3/31/06)                                                              56
Preliminary Inquiries Pending (9/30/05)                                              28
Preliminary Inquiries Opened                                                         11
Preliminary Inquiries Closed                                                         32
Preliminary Inquiries Converted to Cases                                             5
Preliminary Inquiries Pending (3/31/06)                                              2




Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006   53
54   Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006
                   APPENDIX 2: REPORTS ISSUED


                                         AUDITS


AUD/IQO-06-17            Independent AuditoRs’s Report on theApplication
                         of Agreed-Upon Procedures Relating to DECO, Inc.,
                         Task Order No. SALMEC-04-F-0996                             02/06

AUD/CG-06-22             Attestation Review of Annual Accounting of Drug
                         Control Funds by the Department of State                    01/06

AUD/CG-06-21             Quality Control Review of PricewaterhouseCoopers,
                         LLP                                                         03/06

AUD/CG-06-20             Independent Accountants’ Report on the Application
                         of Agreed-Upon Procedures on Indirect Cost Rates
                         Proposed by Scholastic, Inc.                                03/06

AUD/CG-06-05             Analytical Review of the Multinational Force and Observers’
                         FY 2004 Financial Statements and FY 2006 Budget         11/05

AUD/CG-06-02             Application of Agreed-Upon Procedures to George
                         Mason University Awards                                     01/06

AUD/FM-06-19             Vienna Printing Center Costs                                01/06

AUD/FM-06-12A            Independent Auditor’s Revised Report on the
                         Department’s 2005 and 2004 Principal Financial
                         Statements                                                  12/05

AUD/FM-06-12             Independent Audtor’s Report on the Department’s 2005
                         and 2004 Principal Financial Statements              11/05

AUD/FM-06-11             Management Letter Related to the Audit of the
                         U.S. Department of State’s FY2005 and 2004
                         Principal Financial Statements                              03/06

AUD/FM-06-10             Independent Auditor’s Report on the Department’s
                         Special-Purpose Financial Statements                        11/05

AUD/FM-06-09             Independent Auditor’s Report on the Agreed-Upon
                         Procedures for Federal Intragovernmental Activity
                         and Balances                                                12/05




Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006   55
      AUD/FM-06-04              Audit of the International Cooperative Administrative
                                Support Services’ 2004 & 2003 Financial Statements
                                (ICASS)                                                    11/05

      AUD/FM-06-03              Management Letter Related to the Audit of the
                                International Cooperative Administrative Support
                                 Services’ 2004 and 2003 Financial Statements               11/05

      AUD/FM-06-01              Independent Auditor’s Report on Agreed-Upon
                                Procedures Relating to Recreational and Convenience
                                Services                                                    11/05

      AUD/PP-06-14              Office of Multi-Media Services Compliance with
                                Government Purchase Card Internal Controls                  03/06

      AUD/IQO-06-16             Application of Agreed-Upon Procedures of Department
                                of State Procurement Competitions To Support Armored
                                Vehicles in Iraq                                     02/06

      AUD/PP-06-08              Independent Accountant’s Report on the Application
                                of Agreed-Upon Procedures Relating to Bureau of
                                Information Resource Management Enterprise Network
                                Management Office GSA-FEDSIM Millenia
                                Contract Task Order GS-T0004AJM049                 03/06

      SIO-A-06-01               Program Management Review (Phase II) of the
                                Anti-Terrorism Assistance Program                           03/06

                                            INSPECTIONS

      ISP-I-06-16A              Inspection of Emb. Bogotá, Colombia                        03/06

      ISP-I-06-18               Review of Middle East Partnership Initiative               03/06
                                Coordination & Implementation (MEPI)

      ISP-I-06-25A              Inspection of the Office of Coordinator                    03/06
                                for Counterterrorism (S/CT)

      ISP-I-06-24A              Inspection of Embassy Lima, Peru                           03/06

      ISP-I-06-19A              Inspection of Emb. Sanaa, Yemen                            02/06

      ISP-I-06-14A              Emb. Riyadh Saudi Arabia, & Constituent Posts              02/06

      ISP-I-06-22               Inspection of Emb. Conakry, Guinea                         02/06




56   Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006
ISP-I-06-20A             Inspection of Emb. Dakar, Senegal                            02/06

ISP-I-06-21A             Inspection of Embassy Manama, Bahrain                        02/06

ISP-I-06-12              Embassy Bamako, Mali                                         02/06

ISP-I-06-13A             Embassy Kabul, Afghanistan                                   02/06

ISP-I-06-17              Implementation of Computer Aided Job Evaluation
                         at Selected Overseas Posts                                   01/06

ISP-I-06-11              Rightsizing the U.S. Government Presence Overseas:
                         A Progress Report                                            12/05

ISP-I-06-10              Inspection of the Bureau of Intelligence &
                         Research (INR)                                               12/05

ISP-I-06-03              Inspection of Bureau of Diplomatic Security,
                         Directorate for International Programs                       12/05

ISP-I-06-05              Inspection of the Office of the Senior Coordinator
                         for International Women’s Issues                             11/05

ISP-I-06-04              Office to Monitor & Combat Trafficking in Persons            11/05

ISP/IQO-06-01            Inspection of Rule-of-Law Programs, Embassy
                         Baghdad                                                      10/05


                              SECURITY INSPECTIONS

ISP-J-06-16A           Coordination of Department of Defense, Counternarcotics,
                       & Counterterrorism Issues at Emb. Bogotá, Colombia       03/06

ISP-S-06-16A           Security Management Inspection of Embassy
                       Bogotá, Colombia                                               03/06

ISP-S-06-25A           Security Inspection of the Office of Coordinator for
                       Counterterrorism                                               03/06

ISP-S-06-27            Second Onsite Review of New Embassy Construction –
                       Beijing                                                        03/06

ISP-S-06-24A           Security Management Inspection of                              03/06
                       Embassy Lima, Peru




Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006   57
      ISP-S-06-19A           Security Management Review of Emb. Sanaa, Yemen                 02/06

      ISP-S-06-14A           Security Management Inspection of Emb. Riyadh,
                             Saudi Arabia, & Constituent Posts                               02/06

      ISP-S-06-20A           Security Management Review of Emb. Dakar, Senegal               02/06

      ISP-S-06-21A           Security Management Inspection of Emb. Manama,
                             Bahrain                                                         02/06

      ISP-S-06-13A           Security Management Inspection Embassy Kabul,
                             Afghanistan                                                     01/06

      ISP-S-06-07            Review of the Department of State’s Country Reports
                             on Terrorism - 2005 (a.k.a. Patterns II)                        12/05




58   Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006
       APPENDIX 3: SAVINGS AND MORE EFFECTIVE USE
                      OF RESOURCES
                                                         Audits


                                                       Table 1
                                       Inspector General Issued Audit Reports
                                                   With Questioned Costs
                                                 Number           Questioned            Unsupported
                                                 of Reports        Costs                Costs
                                                                                   (Dollars in Thousands)
A.       For which no management
         decision has been made by the
         commencement of the reporting           22               $27,831               $12,807
         period

B.       Which were issued during the
         reporting period                         2                     471                452
C.       For which a management decision
         was made during the report period -       4                1,805                  284
         based on formal administrative or
         judicial appeal
         (i) dollar value of cost disallowed                          314
         (ii) dollar value of costs not disallowed                  1,492

D.       For which no management decision
         has been made by the end of reporting
         period                                24                  26,497               12,975

         Reports for which no
         management decision was made
         within 6 months of issuance             18                26,026               12,523

                                                       Table 2
                                    Inspector General Issued Audit Reports with
                                 Recommendations That Funds Be Put To Better Use
                                                                  Number               Dollar Value

A.   For which no management decision has
     been made by the commencement of the
     reporting period.                                              4                  $ 22,423

B.   Which were issued during the reporting
     period.                                                        1                     7,716

     Subtotals (A+B)                                                5                    30,139

C.   For which a management decision was
     made during the reporting period.                              2                       253
     (i) dollar value of recommendations that
       were agreed to by management
       –based on proposed management action                         1                        10
       –based on proposed legislative action
     (ii) dollar value of recommendations
       that were not agreed to by management                        1                       243
D.   For which no management decision has been
     made by the end of the reporting period.                       3                    29,886
     Reports for which no management decision
     was made within 6 months of issuance                           2                    22,170




     Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006       59
60   Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006
                       APPENDIX 4: RESOLUTION OF
                     REPORTS AND RECOMMENDATIONS



                          Significant Recommendations Pending Final Action
Report Number Recommendation                  Report Title/Recommendation Summary                   Issued
                 Number

AUD/CG-02-44          1            Awards to the Iraqi National Congress                            10/31/2002
                                   We recommend that the Office of Acquisitions grants
                                   officer, in coordination with the Bureau of Near Eastern
                                   Affairs, should withhold, or at least restrict, future funding
                                   to the Iraqi National Congress Support Foundation until
                                   the Foundation has implemented adequate and transparent
                                   financial controls.

AUD/CG-04-39          3            National Endowment for Democracy                                 08/30/2004
                                   The Office of Inspector General recommends that the
                                   Office of the Under Secretary for Global Affairs act as
                                   the focal point and coordinate with any Department entity
                                   deemed appropriate to formulate and execute a new
                                   statement of responsibilities for the financial oversight of
                                   the annual appropriation. This statement of responsibi-
                                   lities should include the assignment of responsibility to a
                                   specific bureau or office for the financial oversight of
                                   the annual appropriation. A grant officer representative
                                   should also be designated to facilitate the administration
                                   and oversight of the annual award.

AUD/FM-05-06          1            Assessment of the Certification and                              12/01/2004
                                   Accreditation, Change Management,and
                                   Patch Management Process
                                   The Bureau of Information Resource Management
                                   should revise the security test and evaluation of the
                                    certification and accreditation process to include a
                                   complete vulnerability scan of the systems being assessed.




      Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006       61
      Significant problems, abuses, and deficiencies

      ISP-I-06-18 Summary Report: Review of Middle East Partnership Initiative -
      Coordination and Implementation

      This review found a significant deficiency in that in the early period of MEPI,
      grants officer representatives (GORs) were not regularly designated and tended not
      to have had GOR training or training in grants management. The Bureau of Near
      Eastern Affairs has remedied that in part, beginning in January 2006, by
      implementing a policy of designating GORs for each project. Embassies now
      designate GORs for small projects. However, there remains a need to provide
      training to GORs and to officers at post involved in assisting the grants officer or
      GOR, both of whom are usually located in Washington.




62   Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006
BROADCASTING BOARD OF GOVERNORS
                                      AUDITS


Management Letter Related to the Audit of the
Broadcasting Board of Governors’ 2005
Principal Financial Statements and 2004
Balance Sheet (AUD/FM-06-06)

Under generally accepted auditing standards, auditors performing financial
statement audits are encouraged to report, in a separate management letter, internal
control weaknesses that do not rise to the level necessary to be reported in the
financial statement opinion. During an audit of BBG’s 2005 Principal Financial
Statements and 2004 Balance Sheet, an independent external auditor identified
internal control weaknesses relating to BBG’s payroll documentation, accounts
receivable balance, accounts payable records, property records, lease records,
undelivered orders, and statement of net cost. The auditor recommended that
BBG take appropriate action to address these weaknesses.




Audit of the Broadcasting Board of Governors’
2005 Principal Financial Statements and 2004
Balance Sheet (AUD/FM-06-07)

The CFO Act, as amended, requires that BBG Principal Financial Statements be
audited. The objectives of the audit are to report on whether the financial
statements fairly present BBG’s financial position and results of financial
operations in accordance with accounting principles generally accepted in the
United States, to determine whether BBG had an internal control structure that
provided reasonable assurance of achieving internal control objectives, and to
determine whether BBG complied with applicable laws and regulations.

The independent external auditor issued an unqualified opinion on BBG’s Principal
Financial Statements as of and for the year ended, September 30, 2005, and an
unqualified opinion on BBG’s Balance Sheet, as of September 30, 2004. Although
an unqualified opinion was issued, the report brings to management’s attention
concerns regarding the inadequacy of BBG’s financial and accounting system,
which is both an internal control weakness and an issue of noncompliance with
several laws and regulations.



Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006   67
68   Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006
                              INSPECTIONS



The Broadcasting Board of Governors’
Operations in and Broadcasting to Afghanistan
(ISP-IB-06-02)

OIG found that BBG’s operations in and broadcasting to Afghanistan are driven by
the agency’s strategic plan and Administration policy. They are well-conceived,
well-managed, and carried out in a challenging environment. BBG’s solid
objectives for the most part mesh with interagency objectives. The agency has
succeeded in meeting some goals and objectives but still needs to work on others,
including performance measures of success and impact. BBG also needs to move
from a short-term reactive vision to a strategic vision of its future work in
Afghanistan.

Afghanistan receives attention at the highest level of BBG and receives a share of
agency resources that reflects its priority status. Coordination within the agency
and with other agencies is good but could be improved. BBG has successfully built
the needed infrastructure and stringer networks that have increased its audience
share credibility. OIG recommended that BBG provide data that better measures
the impact of its broadcasting to Afghanistan and look into alternative
measurement instruments to determine whether and how they can measure agency
performance.




          Transmitting station before repairs               Transmitting station after repairs by BBG




Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006        69
70   Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006
                              INVESTIGATIONS




FOLLOW-UP ACTIONS



FALSE CLAIMS


OIG opened an investigation based upon a referral from BBG management that an
International Broadcasting Bureau (IBB) employee was receiving unemployment
benefits from the Washington, DC, Department of Employment Services. The
investigation determined that the employee received a total of 14 unemployment
checks in the amount of $6,994 from August 2004 through January 2005 while
employed by IBB. On July 19, 2005, OIG agents arrested the subject at her
workplace. On August 8, 2005, the subject pleaded guilty in D.C. Superior Court
to one count of first-degree fraud. On October 4, 2005, the subject was sentenced
to 120 days in jail (suspended), two years’ probation, restitution in the amount of
$6,994 and $50 in court costs. (See OIG, Semiannual Report, April 1, 2005, to
Sept. 30, 2005, p. 85) (05-058)




Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006   71
72   Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006
                        APPENDIX 1: Broadcasting
                       Investigative   Activities
                            Board of Governors
                         Investigative Activities


        Workload
                                      Activities                    Number

        Cases pending 9/30/05                                          2

        New cases opened                                               4
        Cases closed                                                   1
        Cases pending 3/31/06                                          5

        Preliminary inquires pending 9/30/05                           0
        Preliminary inquiries opened                                   1
        Preliminary closed                                             0
        Preliminary inquiries converted to cases                       0

        Preliminary inquiries pending 3/31/06                          1

        Total Judicial Actions                                         4

        Referral for Prosecution                                       1
               Prosecution Declination                                 0
        Criminal Indictment/Arrest                                     1
        Criminal Conviction                                            1
        Criminal Sentencing                                            1
        Time Sentenced                                                 4 Months
        Time Probation                                                 24 Months
        Court Ordered Fine                                             $50
        Court Ordered Restitution                                      $6,994

        Total Investigative Recoveries                                 $6,994




Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006   73
74   Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006
               APPENDIX 2: Reports Issued




AUD/FM-06-06         Management Letter Related to the Audit of the Broadcasting             01/06
                     Board of Governors’ 2005 Principal Financial Statements
                     and 2004 Balance Sheet

AUD/FM-06-07         Audit of the Broadcasting Board of Governors’ 2005 Principal           11/05
                     Financial Statements and 2004 Balance Sheet

ISP-IB-06-02         The Broadcasting Board of Governors’ Operations                        02/06
                     in and Broadcasting to Afghanistan




   Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006   75
76   Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006
             APPENDIX 3: SavingsAPP
                                 & More Effective Use
                                AP
                          of Resources
                                                         Table 1
                                       Inspector General Issued Audit Reports
                                                  With Questioned Costs
                                                 Number of Reports        Questioned Costs            Unsupported
                                                                                                          Costs
                                                                                             (Dollars in Thousands)
A.   For which no management
     decision has been made by the
     commencement of the reporting
     period                                              0                        0                    0

B.   Which were issued during the
     reporting period                                    0                        0                    0
     Subtotals (A+B)                                     0                        0                    0

C.   For which a management decision
     was made during the report period -
     based on formal administrative or
     judicial appeal
     (i) dollar value of cost disallowed                 0                        0                    0
     (ii) dollar value of costs not disallowed           0                        0                    0

D.   For which no management decision
     has been made by the end of reporting
     period                                              0                        0                    0
     Reports for which no
     management decision was made
     within 6 months of issuance                         0                        0                    0

                                                         Table 2
                                    Inspector General Issued Audit Reports with
                                 Recommendations That Funds Be Put To Better Use
                                                        Numbers                              Dollar Value
                                                                                         (in thousands)
A.   For which no management decision has
     been made by the commencement of the
     reporting period.                                  0                                          0

B.   Which were issued during the reporting
      period.                                           0                                          0
     Subtotals (A+B)                                    0                                          0
C.   For which a management decision was
      made during the reporting period.                 0                                          0
      (i) dollar value of recommendations that
          were agreed to by management
              - based on proposed management action
              - based on proposed legislative action
     (ii) dollar value of recommendations
         that were not agreed to by management
D.   For which no management decision has been
     made by the end of the reporting period.           0                                          0
     Reports for which no management decision
     was made within 6 months of issuance.              0                                          0



     Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006                 77
      Significant management success in resolving
      and implementing recommendations

      BBG has shown significant management success in implementing recommendations
      from ISP-IB-05-67, Inspection of the Broadcasting Board of Governors’ Operations in and
      Broadcasting to Pakistan (Sept. 2005). In particular, the Chairman of BBG has
      obtained funding for an AM transmitter and additional FM transmitters in Eastern
      Afghanistan that would cover under-reached tribal areas of Pakistan where Pashto,
      rather than Urdu, is spoken. New programming in Pashto is being prepared.
      Funding is also being sought for an AM transmitter in Oman that would reach the
      southern portion of Pakistan, including Karachi. These efforts represent important
      supporting initiatives in the Global War on Terror. Likewise, the Voice of America
      moved quickly to put its Islamabad News Bureau on a stronger footing to enable it
      to carry out its expanded role in television news and special features.




78   Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006
           CONGRESSIONAL  ACTIVITIES  CO
        CONGRESSIONAL ACTIVITIES ANDAND
                                     OUTREACH
                                  OUTREACH


Testimony

On October 18, 2005, the Inspector General testified before the House Committee
on Government Reform’s Subcommittee on National Security, Emerging Threats,
and International Relations during its hearing on Iraq reconstruction, governance,
and security. His testimony discussed the OIG’s approach to oversight in Iraq and
focused specifically on OIG’s review of Iraqi rule-of-law programs (ISP-IQO-06-
01, Oct. 2005) and an interagency assessment with the DOD/OIG of Iraqi Police
Training (ISP-IQO-05-72, July 2005).




Congressional Mandates and Requests
In response to legislative mandates and requests from Congress, OIG conducted
the following reviews during this semiannual period:

•   In response to a joint request by five Members of the U.S. House of
    Representatives, OIG conducted a review of the Department’s Country Reports
    on Terrorism published in 2004 and followed up on OIG’s recommendations
    from the previous year’s report on the Department’s 2003 Patterns of Global
    Terrorism report.

•   As mandated by the CFO Act, as amended, OIG directed and monitored the
    following financial statement audits and other work conducted by an
    independent public accountant:

    •   Management Letter Related to the Audit of ICASS’ 2004 and 2003
        Financial Statements (AUD/FM-06-03)

    •   Audit of ICASS’ 2004 and 2003 Financial Statements (AUD/FM-06-04)

    •   Management Letter Related to the Audit of BBG’s 2005 Principal Financial
        Statements and 2004 Balance Sheet (AUD/FM-06-06)




Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006   79
          •   Audit of BBG’s 2005 Principal Financial Statements and 2004 Balance Sheet
              (AUD/FM-06-07)

          •   Independent Auditor’s Report on Agreed-Upon Procedures for Federal
              Intragovernmental Activity and Balances (AUD/FM-06-09)

          •    Audit of Department’s Special-Purpose Financial Statements (AUD/FM-06-10)

          •    Management Letter Related to the Audit of the Department of State’s 2005 and
              2004 Principal Financial Statements (AUD/FM-06-11)

          •    Audit of the U.S. Department of State’s 2005 and 2004 Principal Financial
              Statements (AUD/FM-06-12 and 12A)

      •   In response to a request from the Chairman and Ranking Democratic Member
          of the House Committee on International Relations, the Inspector General
          personally conducted a review in Washington and Kabul of a major U.S. funded
          project in Afghanistan.

      The Inspector General and/or OIG staff met with congressional staff to review
      and comment on a variety of issues concerning OIG’s work. Committees with
      whom OIG conducted meetings included the Senate Appropriations Subcommittee
      on State, Foreign Operations, and Related Programs; the Senate Committee on
      Foreign Relations; the Senate Select Committee on Intelligence; and the House
      International Relations Committee.




      Outreach/Media Assistance
      During this reporting period, OIG participated in two Foreign Service officer
      orientations as well as other courses offered by the Foreign Service Institute (FSI)
      to inform Department employees about the role, mission, and services provided by
      OIG.

      As a part of OIG’s anticorruption outreach, OIG met with representatives from the
      Belgian government to discuss the role of government oversight. OIG also met
      with representatives from the Canadian government to discuss human resource
      (HR) management issues.




80   Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006
Members of the media inquired about several OIG reviews, including Passport
Sentinel, Department of State staffing at hardship posts, overseas visa operations,
and OIG work related to the President’s Emergency Plan for AIDS Relief
(PEPFAR), the Global AIDS coordinator, OIG’s oversight role in Iraq, and Middle
East issues.




Legislation Monitored
Some of the bills reviewed and monitored by OIG legislative staff include the
following:

•   Pub. L. No. 109-102: Fiscal Year 2006 Appropriations for Foreign Operations
    and Export Financing

•   Pub. L. No. 109-108: A bill making appropriations for science and related
    agencies, and for the Departments of Commerce, Justice, and State, and related
    agencies for the fiscal year ending September 30, 2006, and for other purposes

•   Pub. L. No.109-163: A bill to authorize appropriations for fiscal year 2006 for
    military activities of the Department of Defense, to prescribe military
    personnel strengths for fiscal year 2006, and for other purposes

•   Pub. L. No. 109-148: Fiscal Year 2006 Defense Appropriations

•   S 2285: A bill to amend the Inspector General Act by setting a 7 year term
    limit for Inspectors General and allow Inspectors General to submit their
    budget requests directly to Congress

•   S 1803 and HR 2475: Fiscal Year 2006 Intelligence Authorization Act

•   H. Res. 4436: A bill to provide certain authorities for the Department of State,
    and for other purposes

•   H. Res. 4939: A bill to make emergency supplemental appropriations for the
    fiscal year ending September 30, 2006, and for other purposes

•   H. Res. 4603: A bill to amend the Public Health Service Act with respect to
    pandemic influenza, and for other purposes




Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006   81
      Implementation of the Government Performance
      and Results Act and the President’s
      Management Agenda

      OIG’s report, The Broadcasting Board of Governors’ Operations in and Broadcasting to
      Afghanistan (ISP-IB-06-02) discusses performance measurement, the issue at the
      heart of the Results Act, at great length. In particular, recommendation 4 called on
      BBG to examine alternative measurements that would measure the impact of
      broadcasts while controlling for external factors or intervening variables that have
      made measuring results difficult to accomplish. In addition, recommendation 3
      called on BBG to modify or add questions to audience research surveys
      administered by contract research firms to elicit data that better measure impact.




82   Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006
                      LIST OF ABBREVIATIONS


               A/LM/AQM                   Bureau of Administration
                                          Office of Logistics Management
                                          Office of Acquisitions Management
                      A/RPS               Bureau of Administration
                                          Office of Records and Publishing Services
              A/RPS/MMS                   Bureau of Administration
                                          Office of Multi-Media Services
                        BBG               Broadcasting Board of Governors
                          CA              Bureau of Consular Affairs
                       CAJE               Computer Aided Job Evaluation System
                          CD              Compact Disc
                        CFO               Chief Financial Officer
                        DHS               Department of Homeland Security
                   DS/ATA                 Bureau of Diplomatic Security,
                                          Anti-Terrorism Assistance Program
                      DS/IP               Bureau of Diplomatic Security,
                                          International Programs
                        ECA               Bureau of Educational and Cultural Affairs
                          FBI             Federal Bureau of Investigation
                      FFMIA               Federal Financial Management Improvement
                                          Act
                      FISMA               Federal Information Security Management
                                          Act
                          FSI             Foreign Service Institute
                        GAO               Government Accountability Office
                          HR              Bureau of Human Resources
                         IBB              International Broadcasting Bureau
                      ICASS               International Cooperative Administrative
                                          Support Services
                         INL              International Narcotics and Law
                                          Enforcement



Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006   83
                                INR              Bureau of Intelligence and Research
                                IRS              Internal Revenue Service
                                  IT             Information Technology
                              MEPI               Middle East Partnership Initiative
                              MFO                Multinational Force and Observers
                              NEA                Bureau of Near Eastern Affairs
                               OIG               Office of Inspector General
                              OMB                Office of Management and Budget
                          ONDCP                  Office of National Drug Control
                                                 Policy
                          PEPFAR                 President’s Emergency Plan for AIDS
                                                 Relief
                               RSO               Regional Security Officer
                              S/CT               Office of the Coordinator for
                                                 Counterterrorism
                                SSA              Social Security Administration




84   Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006
            INDEX OF REPORTING REQUIREMENTS
       INSPECTOR GENERAL ACT OF 1978, AS AMENDED



REQUIREMENT SUBJECT                                                         PAGE NUMBERS

Section 4(a)(2) Review of legislation and regulations                       81
Section 5(a)(1)   Significant problems, abuses, and deficiencies            13-44, 67-69

Section 5(a)(2)   Significant recommendations for corrective action         13-46, 67-69

Section 5(a)(3)   Prior significant recommendations unimplemented           61

Section 5(a)(4)   Matters referred to prosecutive authorities               47-51, 71

Section 5(a)(5)   Information or assistance refused                         none

Section 5(a)(6)   List of reports issued                                    55-58, 75

Section 5(a)(7)   Summaries of significant reports                          13-46, 67-69

Section 5(a)(8)   Audit reports–questioned costs                            59, 77

Section 5(a)(9)   Audit reports–funds to be put to better use               59, 77

Section 5(a)(10) Prior audit reports unresolved                             57, 77

Section 5(a)(11) Significant revised management decisions                   none

Section 5(a)(12) Significant management decisions with which
                 OIG disagreed                                              none




Office of Inspector General Semiannual Report to the Congress, October 1, 2005 to March 31, 2006   85
FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
        of Federal programs and resources
                 hurts everyone.

       Call the Office of Inspector General
                    HOTLINE
                    202/647-3320
                 or 1-800-409-9926
         or e-mail oighotline@state.gov
       to report illegal or wasteful activities.

               You may also write to
            Office of Inspector General
             U.S. Department of State
               Post Office Box 9778
                Arlington, VA 22219

       Please visit our website at oig.state.gov

         Cables to the Inspector General
        should be slugged “OIG Channel”
             to ensure confidentiality.
                BLE OF CONTENTS
